Office Of inspectOr General
U.S. Department of tranSportation




       semiannual repOrt tO cOnGress
         October 1, 2010 – March 31, 2011
                                                            Table of Contents
From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           In Focus: Ensuring NextGen Delivers Planned Benefits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
           In Focus: Financial Statement Audits Continue To Promote Improvements
               in DOT’s Financial Management Practices  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
           Aquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
           Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
Work Planned and in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44
           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52

Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55
           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 55
           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
           OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58
           OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  .  . 59
           OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 60
           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
           Office of Inspector General Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62
           Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 72
           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74
           Statistical Outcomes .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74
           Profile of All Pending Investigations by CaseType, as of March 31, 2011  .  .  .  .  .  .  .  .  . 76

Peer Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 82
Notes .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83
                          From the Inspector General

I am pleased to present the Department of Transportation (DOT), Office of Inspector
General Semiannual Report to Congress for the first half of fiscal year 2011. Our audit
and investigative work supports the Department’s strategic goals of safety; reduced
congestion; global connectivity; environmental stewardship; security, preparedness,
and response; and organizational excellence. Over the past 6 months, we issued 72
reports with a total of 221 recommendations, including financial recommendations
totaling over $1.6 billion. Our investigative work resulted in 35 indictments, 35
convictions, and a total of more than $225 million in fines, restitutions, and recoveries.
Our aviation work continued to focus on FAA’s efforts to enhance air traffic capacity
through the Next Generation Air Transportation System (NextGen). Of particular
concern are cost, schedule, and performance risks FAA faces in implementing key
NextGen technologies, including En Route Automation Modernization (ERAM)—a $2.1
billion system for processing data. As we testified in February, continued problems
with ERAM will affect the cost and pace of other NextGen efforts that are dependent
on ERAM, such as more efficient data sharing and advanced airspace routes. We also
reported on FAA’s efforts to improve its Air Transportation Oversight System, identify
the effects of flight delays in the New York area on flights nationwide, and determine
whether safety is linked to pilot experience and pay. Our investigations uncovered the
sale of fraudulent aircraft parts, falsified aircraft maintenance records, illegal operation
of a luxury charter jet company, and the illegal transport of ammunition primers—
underscoring the need for increased rigor in FAA’s oversight of the airline industry.
Our highway and transit audits continued to track the Federal Highway Administration’s
(FHWA) progress in targeting oversight to higher priority bridge safety risks and to
work with states to mitigate these risks—two key recommendations we made in
January 2009 to improve bridge safety. In March 2011, FHWA completely overhauled
its oversight process and rolled out its data-driven, risk-based approach to bridge
safety oversight. Our investigations of rogue motor carriers operating on our Nation’s
highways revealed cases of fraud with significant safety implications, including false
statements related to issued commercial driver’s licenses, commercial driver rest
requirements, and commercial trucking safety inspections. Our motor carrier safety
cases have led to three indictments and nine convictions involving a number of
companies and individuals.
Our rail audits focused on the quality of service U.S. railroads provide to commodity
shippers and Amtrak’s operational reforms and long-term capital planning. Our
maritime work identified weaknesses in the Maritime Administration’s oversight of the
multibillion dollar Title XI Loan Guarantee Program.
Our audits of the Department’s information technology portfolio—one of the largest
among Federal civilian agencies—continue to identify significant vulnerabilities,
particularly in the area of cybersecurity. While 90 percent of DOT employees have
received security awareness training, we concluded that areas such as information
security policy procedures and enterprise- and system-level controls need urgent


                            Semiannual Report to Congress      iii
attention. For fiscal year 2010, DOT and FAA earned their third consecutive clean
audit opinion. Despite this accomplishment, additional improvements are needed
to further strengthen financial management within the Department, such as
deobligating $1.5 billion in funds to make available for other DOT priorities. Our
investigations further identified abuse of DOT dollars—more than $40 million through
disadvantaged business enterprise fraud.
Finally, we continued to pursue opportunities to ensure accountability, efficiency, and
transparency over DOT’s $48 billion in ARRA funds, and remain committed to promptly
notifying DOT and Congress of actions needed to prevent fraud, waste, and abuse
in ARRA programs. As of the end of March, we have 24 planned and ongoing ARRA
audits, and 51 open ARRA investigations involving allegations of disadvantaged
business enterprise violations; false claims, statements, or certifications; conflicts of
interest; anti-trust violations; and bid rigging, collusion, embezzlement, and prevailing
wage violations. Forty-five of our 51 ARRA investigations have been accepted for
review for prosecution by the Department of Justice.
Our work reflects a strong commitment to providing in-depth analyses of important
transportation issues to serve and inform Congress, the Department, and the
public. I commend and thank our hard-working staff for their outstanding efforts
and dedication to our critical mission. I would also like to thank Secretary LaHood
for his leadership and tireless efforts in these challenging times. I look forward to
continuing to work with the Secretary, his team, and modal administrators to provide
Americans with a transportation system that meets the national objectives of general
welfare, economic growth and stability, and security.




Calvin L. Scovel III




                             From the Inspector General      iv
                                             Aviation and Special Programs

Audits                                                require coordinated, billion-dollar investments
                                                      from FAA and industry over the next decade.
October 12, 2010                                      Stakeholders’ concerns about undefined costs,
                                                      benefits, and technical requirements prompted
FAA Faces Significant Risks in                        the Aviation Rulemaking Committee in 2008 to
Implementing the Automatic                            make 36 recommendations to help FAA remove
                                                      these program risks.
Dependent Surveillance-Broadcast
Program and Realizing Benefits                        We identified a number of obstacles that con-
Requested by the former Chairmen of the House         tinue to create cost, schedule, and performance
Committee on Transportation and Infrastructure        risks. First, undefined costs and benefits dis-
and its Subcommittee on Aviation                      courage airspace users from equipping with
                                                      ADS-B. Evolving cockpit display requirements
FAA expects the Automatic Dependent                   have further discouraged ADS-B use. Technical
Surveillance-Broadcast (ADS-B) program will           issues—such as managing frequency conges-
enhance National Air Space capacity, im-              tion with ADS-B broadcasts, integrating ADS-B
prove safety, and play a critical role in FAA’s       and existing controller systems, and address-
planned transition to the Next Generation Air         ing potential security vulnerabilities—could
Transportation System (NextGen). ADS-B’s im-          also limit benefits and delay implementation.
plementation is a complex undertaking that will       FAA’s contract approach could further increase


                                  Semiannual Report to Congress      1
overall program costs. ADS-B’s contract struc-            Flight delays in the New York area have three main
ture “bundles” costs for various ADS-B services,          causes: (1) the close proximity and high volume
making it difficult for decision makers to track          of flight operations of the three main New York
costs. At the same time, FAA has yet to assess            airports; (2) airport capacity constraints; and (3)
staffing gaps or actions needed to ensure that it         continued growth in air traffic over the last 10
can effectively oversee the contractor once the           years. FAA’s 2008 flight limits at Kennedy and
ground system is in place.                                Newark have done little to reduce New York-area
                                                          delays. While there is substantial agreement that
We made nine recommendations to help FAA                  New York delays have a ripple effect, the extent
reduce risks with ADS-B’s implementation and              and nature of their impact across the Nation are
enhance contract oversight. FAA concurred with            largely unknown. FAA’s efforts to measure this
seven recommendations and partially concurred             effect are in the developmental stage and require
with two. FAA proposed acceptable actions for             additional work to provide a full understanding of
all nine recommendations.                                 delay propagation.

October 28, 2010                                          We made four recommendations to FAA calling
New York Flight Delays Have Three                         for a reexamination of its flight caps, enhance-
                                                          ment of existing flight data, and the development
Main Causes, but More Work                                of a viable methodology for the understanding of
Is Needed To Understand Their                             delay propagation effects. FAA fully concurred
                                                          with one recommendation and partially con-
Nationwide Effect
                                                          curred with three.
Requested by the former Chairman of the House
Committee on Transportation and Infrastructure            December 10, 2010
and its Subcommittee on Aviation
                                                          FAA Needs To Implement More
The principal New York-area airports—Kennedy,             Efficient Performance-Based
LaGuardia, and Newark—consistently experi-                Navigation Procedures and Clarify the
ence the highest delay rate among the 55 major
U.S. airports. In summer 2007, the New York               Role of Third Parties
airports accounted for over 40 percent of the             Requested by the former Chairman of the House
Nation’s delayed or cancelled arriving flights.           Committee on Transportation and Infrastructure
Such delays not only pose a significant problem           and its Subcommittee on Aviation
for air travelers in the New York region but affect
passengers flying to other parts of the country.          Area Navigation (RNAV) and Required Navigation
                                                          Performance (RNP) technologies—key building
                                                          blocks for FAA’s NextGen system—present the




                                     Aviation and Special Programs      2
potential benefits of shorter, more direct flight       December 16, 2010
paths; improved airport arrival rates; enhanced
                                                        FAA Needs To Improve Risk
controller productivity; fuel savings; and reduced
aircraft noise. Since 2005, FAA has imple-              Assessment Processes for Its Air
mented over 600 RNAV and RNP procedures,                Transportation Oversight System
despite industry concerns about their quality           Requested by the Chairman and Ranking
and timeliness. In response to these concerns,          Member of the Senate Committee on Science,
FAA entered into agreements in 2007 with two            Commerce, and Transportation, and the former
non-governmental third parties to develop and           Chairman and Ranking Member of the House
implement RNP procedures.                               Committee on Transportation and Infrastructure

While FAA has granted authority to two third par-       FAA’s Air Transportation Oversight System
ties to develop public RNP procedures, it plans         (ATOS) conducts surveillance of nearly 100 Part
to rely primarily on its own resources to develop       121 U.S. air carriers, which transport more than
and implement RNAV/RNP procedures, leaving              90 percent of U.S. airline passenger and cargo
the roles of third parties unclear. Regardless,         traffic. Under the ATOS concept, FAA inspec-
FAA has yet to widely implement the new pro-            tors apply system safety principles and use data
cedures. It also lacks an effective method for          analysis to focus their inspections on areas that
determining how new procedures will impact air          pose the greatest risk and to identify possible
traffic policies and whether they are working as        problems before accidents occur. ATOS also
intended. FAA has also not fully established an         permits inspectors to shift the focus of their
oversight program for third parties, defined the        inspections in response to changing conditions
staffing levels needed to oversee them, or final-       within air carriers’ operations. While ATOS is
ized key guidance to industry on qualifications to      conceptually sound, our prior reports have found
become a third-party developer.                         that FAA needs to strengthen national oversight
                                                        of the system. Safety lapses at a major airline in
We made eight recommendations to help FAA               2008 prompted Congress to request an assess-
effectively implement and coordinate RNAV/RNP           ment of the system and identification of system-
procedures and establish an oversight program           wide weaknesses.
for third parties. Overall, FAA’s response met the
intent of most of our recommendations; however,         Despite FAA’s efforts to continuously improve
we have requested that FAA provide additional           ATOS, we found that FAA inspectors did not
clarifying information for three of them.               complete on time their ATOS inspections of air
                                                        carriers’ maintenance policies and procedures
                                                        or systems performance. In addition, FAA tran-
                                                        sitioned all of its Part 121 inspection offices to
                                                        ATOS at the end of 2007, but training gaps left
                                                        some inspectors unprepared to adapt ATOS to


                                    Semiannual Report to Congress      3
their smaller carriers’ operations. Weaknesses             at metroplex locations, and had yet to establish
in FAA’s current ATOS approach hinder its ability          a mechanism for integrating metroplex initiatives
to effectively target areas of greatest need for           with programs in order to better manage airport
inspector resources. We made seven recom-                  surface operations. At the same time, FAA was
mendations to FAA to improve its data, training,           facing several organizational, policy, logisti-
and risk assessment processes for ATOS. FAA                cal, and training challenges, including working
concurred with four of our seven recommenda-               across diverse agency lines of business and
tions and partially concurred with three.                  establishing policies on data sharing, that could
                                                           impede NextGen implementation in the midterm.
December 21, 2010
Letter to Chairmen Oberstar and                            FAA has also been challenged to resolve
                                                           implementation problems with critical modern-
Costello and Ranking Members Mica                          ization projects, such as En Route Automation
and Petri Regarding FAA’s Efforts                          Modernization (ERAM)—a $2.1 billion NextGen
to Implement RTCA Task Force                               tool for processing flight data—which has ex-
                                                           perienced software problems and delays at key
Recommendations for NextGen                                sites.
Requested by the former Chairmen and former
Ranking Members of the House Transportation                February 9, 2011
and   Infrastructure  Committee   and    its
Subcommittee on Aviation
                                                           Letter to Senators Rockefeller,
                                                           Hutchison, and DeMint Regarding
In September 2009, an RTCA task force rec-                 Commercial Aviation Accidents, Pilot
ommended mid-term actions for advancing
NextGen. The task force findings and recom-
                                                           Experience, and Pilot Compensation
mendations are consistent with our work, cover-            Requested by Chairman Rockefeller and
ing areas such as maximizing the use of equip-             Ranking Member Hutchison of the Committee
ment already on aircraft and new procedures,               on Commerce, Science, and Transportation and
enhancing information sharing among FAA and                Ranking Member DeMint of the Subcommittee
airspace users, and reducing delays.                       on Aviation Operations, Safety, and Security


Our audit work at the time of this letter found that       Following the fatal crash of Colgan flight 3407
FAA was working to address RTCA’s recommen-                in February 2009, the National Transportation
dations in its NextGen plans but had not specified         Safety Board (NTSB) and congressional hearings
how it would execute key initiatives to address            raised concerns about whether there was a direct
delays in major metropolitan areas. FAA was                relationship among commercial aviation acci-
still working to establish definitive milestones to        dents, pilot experience, and pilot compensation.
integrate new airspace designs and procedures



                                      Aviation and Special Programs      4
Overall, we could not identify a direct relationship      to key NextGen long-term goals, including in-
between accidents and pilot experience because            creasing airspace capacity and reducing flight
pilots involved in accidents had varying ranges           delays and congestion. However, software
of flight hours. However, we observed fewer ac-           problems with ERAM have caused significant
cidents among pilots who had more flight time             delays that will affect FAA’s NextGen plans
in the accident aircraft make and model. In ad-           and costs. NextGen’s success also relies on a
dition, pilot performance was cited in 7 of the           strong, multi-agency approach to develop safe
10 major accidents that have occurred over the            and effective aviation technologies. While it has
last decade—including the Colgan accident—                made progress in coordinating partner agencies’
indicating that factors beyond flight experience—         diverse Federal research and long-term plans,
such as quality of training, professionalism, and         FAA has not reached consensus with its partners
mentoring—are also at play.                               on fundamental issues that will materially affect
                                                          the cost, schedule, and capabilities of NextGen.
Establishing a relationship between pilot ex-
perience and compensation was also difficult              The Inspector General highlighted several man-
because pilots’ level of pay is usually based             agement actions FAA can take now to strengthen
more on their seniority with the airline than on          its management of long-term NextGen initiatives.
their total flight time. Compensation also varies         These include clarifying responsibility within FAA
significantly depending on whether the pilot is           for critical NextGen development areas, finaliz-
the captain or first officer and the aircraft type.       ing performance goals and metrics for NextGen,
Generally, the larger the aircraft, the higher the        establishing an integrated budget document to
compensation.                                             align and track all partner agencies’ NextGen
                                                          resources, and fully leveraging the technol-
February 16, 2011                                         ogy portfolios of partner agencies to assist with
Actions Needed To Meet FAA’s Long-                        NextGen development.

Term Goals for NextGen                                    February 17, 2011
Testimony before the House Committee on
Science and Technology, Subcommittee on
                                                          FAA Fulfilled Most ARRA Requirements
Space and Aeronautics                                     in Awarding Airport Grants
                                                          Self-initiated
The Inspector General testified on two significant
challenges FAA faces in achieving NextGen’s               The American Recovery and Reinvestment Act
long-term goals: (1) implementing ERAM—a                  (ARRA) designated over $1 billion for Airport
$2.1 billion system for processing flight data—           Improvement Program (AIP) projects that could
and (2) reaching consensus with partner agen-             achieve several key goals, such as providing
cies on key research and development efforts.             long-term economic benefits, creating jobs, and
Successful implementation of ERAM is critical             promoting economic recovery. ARRA established



                                      Semiannual Report to Congress      5
tight timeframes for distributing and expending          one recommendation based on FAA’s corrective
funds and emphasized preference for projects             actions taken to date.
that could be completed in 2 years. In August
2009, we issued an advisory that outlined our            February 28, 2011
concerns with FAA’s process for awarding these           FAA Did Not Ensure Revenue Was
ARRA grants. We questioned the economic merit
of some lower scoring projects and highlighted           Maximized at Denver International
several ARRA recipients with grant manage-               Airport
ment problems identified in single audit reports.        Self-initiated
Based on these preliminary findings, we initiated
an audit to determine the extent to which FAA’s          Federal law requires airport sponsors receiving
process for awarding ARRA grants complied                Federal grant funds to be as self-sustaining as
with ARRA requirements and other associated              possible and to use airport revenues only for
guidance.                                                airport purposes. We reported that FAA allowed
                                                         the City of Denver to sell property from Stapleton
Overall, we found that FAA’s process for award-          International Airport—which was closed and
ing AIP grants fulfilled most ARRA requirements,         replaced by Denver International Airport in
including meeting the timeframes for distributing        1995—to a developer for less than fair market
and expending funds and giving preference to             value. As a result, the airport lost at least $71
projects that could be completed within 2 years.         million in revenue. FAA’s oversight was also inef-
In addition, FAA avoided supplanting other               fective in ensuring proper use of airport revenues
expenditures with ARRA funds. While FAA also             because it did not prevent the city from using
took steps to increase grantee oversight, contin-        airport revenue to fund redevelopment, parks,
ued effort will be needed to comply with Office          and infrastructure—a federally prohibited non-
of Management and Budget (OMB) guidance                  airport purpose.
on use of single audit reports to monitor ARRA
recipients. We also found that to fully meet             We made four recommendations to FAA focused
Presidential direction, FAA should have used a           on improving the process of ensuring fair market
more transparent project selection process and           value for land sold from any future airport clo-
given more consideration to projects’ potential          sures, ceasing funding of any prohibited Denver
economic impact before awarding grants.                  airport revenue diversions, recovering revenue
Meeting these last two objectives would have             diversions from previous sales of Stapleton
provided greater assurance that ARRA funds               property, and exploring ways to obtain fair mar-
went to the best candidates.                             ket value from future sales of Stapleton prop-
                                                         erty. FAA did not concur with our findings and
We made three recommendations to further im-             recommendations; we consider them open and
prove FAA’s public transparency and oversight of         unresolved and requested that FAA reconsider
existing ARRA grant selections. FAA concurred            its response.
with our recommendations, and we have closed

                                    Aviation and Special Programs      6
March 30, 2011                                            March 21, 2011
FAA Must Improve Its Controller                           Letter to Ranking Member Costello
Training Metrics To Help Identify                         Regarding FAA’s Oversight of On-
Program Needs                                             Demand Aircraft Operators
Requested by Representative Jerry F. Costello,            Requested by Representative Jerry F. Costello,
then Chairman of the House Committee on                   Ranking Member of the House Committee on
Transportation and Infrastructure’s Subcommittee          Transportation and Infrastructure’s Subcommittee
on Aviation                                               on Aviation

FAA has taken several steps to address inac-              In July 2009, we reported on the differences
curate training failure rates reported for new            between FAA regulations and oversight for on-
controllers, which we reported in June 2009.              demand operators and larger, commercial air
However, FAA continues to face challenges in              carriers, and recommended actions for FAA to
identifying training program needs and measur-            revise outdated safety regulations and improve
ing the overall success of the training program.          its risk assessment processes. We also testi-
FAA’s current metrics do not provide a complete           fied before the subcommittee in March 2010 on
picture of program success because they as-               aspects of the industry where FAA should focus
sume that all in-progress controllers will success-       its oversight efforts.
fully complete their initial training. As a result,
FAA’s attrition rates cannot be relied on to make         FAA has made notable progress in addressing
warranted adjustments to the training program.            our recommendations. Specifically, FAA has de-
During our review, we used metrics that focused           veloped risk-based tools to target safety issues
on the annual output of the training program,             inherent to on-demand operations and improved
which showed a significantly higher fiscal year           surveillance resources for FAA inspectors. FAA
2009 attrition rate for new controller training than      is also updating the regulatory structure for
what FAA reported. We recommended that FAA                on-demand operators to address risks within
replace its current training metrics with metrics         Helicopter Emergency Medical Services op-
that focus on how many controllers complete               erations and reduce human error in the cockpit
their training or leave the program during a given        through required crew resource management
period of time. FAA concurred with our recom-             training. While these safety advancements are
mendation and took appropriate actions.                   important, FAA still needs to focus on a number
                                                          of NTSB recommendations aimed at closing
                                                          regulatory and oversight gaps in areas such as
                                                          air tours and illegal operators.




                                      Semiannual Report to Congress      7
Investigations                                            November 10, 2010
                                                          Washington Man Indicted on Federal
October 7, 2010                                           Charges, including Flying without a
Former Aircraft Parts Supplier                            Valid FAA Airman’s Certificate
Sentenced for Fraud Involving Aircraft
                                                          Colton Harris-Moore, of Camano Island,
Parts                                                     Washington, was indicted in U.S. District Court,
                                                          Seattle, Washington, and charged with interstate
Mark Holiday, former owner of Sky Controls, Inc.
                                                          transportation of a stolen aircraft, interstate and
(SCI), was sentenced in U.S. District Court, Los
                                                          foreign transportation of a stolen firearm, being
Angeles, California, to 8 months imprisonment,
                                                          a fugitive in possession of a firearm, piloting an
3 years supervised release, and a $5,000 fine,
                                                          aircraft without a valid airman’s certificate, and
and ordered to pay $1,602.50 in restitution, and
                                                          interstate transportation of a stolen vessel.
a $100 special assessment. Holiday had pled
guilty to misrepresenting the condition of an air-
craft part while on probation for similar conduct.        In 2008, Harris-Moore allegedly began a crime
                                                          spree that involved the theft of aircraft, boats,
                                                          vehicles, and firearms. On more than one occa-
As owner of SCI, Holiday instructed his em-
                                                          sion, Harris-Moore piloted stolen aircraft, without
ployees to repair or otherwise change the
                                                          a valid airman’s certificate. It is estimated that
appearance of used aircraft parts so that the
                                                          based on Harris-Moore’s conduct, 80 investiga-
parts could be sold as new or new surplus to
                                                          tions have been initiated into residential and
customers, knowing that the parts were not as
                                                          commercial burglaries, vehicle prowls, vehicle
SCI represented. In one instance, SCI sold an
                                                          thefts, assault on law enforcement officials, and
aircraft motor with an SCI-issued Certificate of
                                                          the theft of five aircraft. Harris-Moore alleg-
Conformance falsely certifying that the motor
                                                          edly began moving his crime spree eastward in
was in new surplus condition. The manufacturer
                                                          June 2010, and on July 4, 2010, allegedly stole
subsequently tested the motor and determined
                                                          an aircraft in Indiana, which he flew to Grand
that certain characteristics were inconsistent
                                                          Abaco Island in the Bahamas. Harris-Moore
with its motors.
                                                          survived a crash landing—reportedly his usual
                                                          method of landing—in the Bahamas. After be-
This investigation was conducted jointly with the
                                                          ing apprehended by the Royal Bahamas Police,
Federal Bureau of Investigation (FBI), Defense
                                                          Harris-Moore was transported to Washington
Criminal Investigative Service, the National
                                                          State where he was charged for his crimes.
Aeronautics and Space Administration’s OIG,
and U.S. Army Criminal Investigation Division
                                                          This investigation was conducted jointly with the
(CID).
                                                          FBI, the Bureau of Alcohol, Tobacco, Firearms,
                                                          and Explosives (ATF), and other state and local
                                                          law enforcement agencies.

                                     Aviation and Special Programs      8
Note: Indictments, informations, and crimi-               President, solicited business and booked flights
nal complaints are only accusations by the                on its behalf, and was convicted of conspiracy to
Government. All defendants are presumed in-               commit wire fraud.
nocent unless and until proven guilty.
                                                          December 3, 2010
November 15, 2010
                                                          New Jersey Aircraft Parts Broker
Jury Convicts Two Company Executives                      Pleads Guilty in Connection With a
for Operating an Illegal Luxury                           Scheme to Sell Scrapped Aircraft Jet
Charter Jet Company                                       Engine Parts
Following a 4-week trial, brothers Michael F.             Carmine Coviello, an aircraft parts broker and
Brassington and Paul Brassington—co-founders              owner of Shelby Enterprises, pled guilty in U.S.
of the now-defunct Platinum Jet Management                District Court, Newark, New Jersey, to a charge
(PJM), a luxury air charter service based in              of conspiring to commit wire fraud.
Fort Lauderdale, Florida—were convicted by a
Federal jury in Newark, New Jersey, on charges
                                                          Coviello admitted that from April 2005 through
stemming from the February 2, 2005, PJM crash
                                                          August 2009, his company purchased used jet
in Teterboro, New Jersey.
                                                          engine parts known as “blades” and “vanes”
                                                          from scrap metal dealers that FAA-certificated
While attempting take-off at Teterboro Airport, the       repair stations had deemed non-repairable and
PJM passenger jet over-ran the runway, struck             thus not airworthy.
two cars as it crossed a roadway, and crashed
into a warehouse, resulting in injuries. An NTSB
                                                          Coviello used his company to engage in sham
investigation concluded that the aircraft’s incor-
                                                          sales to Tara Aviation—an aircraft parts broker
rect center of gravity contributed to the crash.
                                                          located in the Bailiwick of Guernsey, England,
An OIG investigation revealed that the flight’s
                                                          that employed Coviello as a general manager.
first officer relied on Michael Brassington’s repre-
                                                          Coveillo admitted that the sole purpose of these
sentations concerning the weight of the aircraft,
                                                          sales was to generate a fraudulent historical
causing the plane to be over-fueled and creating
                                                          record that the blades and vanes were certified
an imbalance in the center of gravity.
                                                          without his knowledge of their actual history or
                                                          whether or not these parts had been subject to
Michael Brassington—PJM’s President, CEO,                 severe stress or heat.
and chief pilot—was found guilty of endangering
an aircraft, conspiracy to defraud the govern-
                                                          This investigation was conducted jointly with
ment, making false statements in flight log books,
                                                          the Internal Revenue Service (IRS) and with the
and providing false information to NTSB during
                                                          assistance of the FAA Flight Standards District
its investigation. Paul Brassington, PJM’s Vice
                                                          Office.


                                      Semiannual Report to Congress      9
February 7, 2011                                           did not complete a thorough inspection of the
                                                           helicopter and the helicopter was not airworthy.
FAA Mechanics Plead Guilty to
                                                           During the sentencing hearing, the District Court
and Are Sentenced for Falsifying                           Judge ordered Smith’s FAA aircraft mechanic
Records on Aircraft Parts Repairs and                      license revoked and that he not seek or accept
                                                           work relating to aircraft inspection or repair. This
Inspections                                                investigation was conducted with assistance
David Stanley Fisher of Ocala, Florida, was sen-           from FAA.
tenced in U.S. District Court Gainesville, Florida,
to 36 months probation and a $300 special
                                                           February 22, 2011
assessment. Fisher had pled guilty to charges              Massachusetts Man Pleads Guilty
associated with making false statements regard-
ing aircraft maintenance. Fisher admitted that
                                                           to Illegally Transporting Ammunition
while employed at World Aircraft Connections,              Primers on Passenger Aircraft
Inc. (WAC), Williston, Florida, as an FAA licensed
                                                           Orville A. Braham pled guilty in U.S. District
mechanic with Airframe and Powerplant (A&P)
                                                           Court, Miami, Florida, to charges that he illegally
ratings, he signed off that he had overhauled a
                                                           transported ammunition primers in his luggage
main rotor hub assembly, a compressor assem-
                                                           on a passenger aircraft.
bly, a turbine assembly, and a gearbox assembly
and installed these parts on two Bell helicopters,
when in fact he did not overhaul the parts. He             In December 2010, Braham boarded an
further admitted that he signed off on two 100-            American Airlines flight with two pieces of lug-
hour inspections for the same helicopters, when            gage that contained hundreds of concealed .45
in fact he did not complete proper inspections of          caliber ammunition primers, which are explosive
the aircraft. As part of his plea agreement, Fisher        and hazardous materials. One piece of luggage
agreed to permanently surrender and forfeit his            exploded and injured a baggage handler who
FAA aircraft and mechanic’s license with A&P               was unloading the luggage at Miami International
ratings, and to not reapply for this license after         Airport. Braham also concealed components of
completing his sentence.                                   a disassembled ammunition reloading press, a
                                                           machine used to assemble component parts,
                                                           including ammunition primers, and to create
In the same investigation, James Lanier Smith,
                                                           ammunition.
of Ocala, Florida, was sentenced in U.S. District
Court, Gainesville, Florida, on October 28, 2010
to 1 year probation, a $2,500 fine, and a $100             The investigation is being conducted jointly
special assessment fee. Smith, also employed               with the FBI and ATF, with assistance provided
by WAC, had pled guilty to charges of falsely              by FAA. Note: Indictments, informations, and
entering in an aircraft logbook that he had com-           criminal complaints are only accusations by the
pleted an annual inspection of a Bell L-1 heli-            Government. All defendants are presumed in-
copter and certified it airworthy, when in fact he         nocent unless and until proven guilty.

                                     Aviation and Special Programs      10
 In Focus: Ensuring NextGen Delivers Planned Benefits


T   he National Airspace System handles almost
    50,000 flights a day and more than 700 million
passengers a year. Steadily increasing air traffic
                                                         maximizing existing aircraft navigation capabili-
                                                         ties, improving the use of runways at congested
                                                         airports, and enhancing airport surface opera-
has resulted in more delays and cancellations,           tions. The task force warned that airspace users
which are at the root of consumer dissatisfac-           are willing to make NextGen investments only if
tion with air travel. NextGen aims to significantly      FAA’s programs provide a clear path to immedi-
transform air traffic management by relying on           ate and tangible benefits.
satellite-based navigation and advanced au-
tomation as opposed to today’s ground-based              Several ongoing and completed OIG audits
radar. NextGen is the most complex effort FAA            have highlighted the challenges FAA faces in
has ever engaged in and will require multibillion-       delivering promised benefits. For example, last
dollar investments from both the Government              December we reported that FAA has struggled
and the airline industry.                                with implementing Area Navigation (RNAV) and
                                                         Required Navigation Performance (RNP)2—new
In September 2009, an FAA-sponsored                      satellite-based routes and procedures that can
Government-industry task force issued a report           provide shorter, more direct flight paths and
detailing what can be done in the next 3 to 5 years      improved airport arrival rates. However, FAA
to effectively transition to NextGen.1 The task          has not widely implemented the more efficient
force made 28 recommendations, the majority              RNP procedures that airlines need to reduce fuel
of which are consistent with our work, including         burn, or developed metrics to measure benefits.



                                    Semiannual Report to Congress      11
FAA also faces significant risks and challenges in              are uncertain, but FAA now plans to complete
deploying the Automatic Dependent Surveillance-                 the program in 2014—a schedule slip of 4 years.
Broadcast (ADS-B)—a system intended to help                     Prolonged delays with ERAM will directly impact
controllers and pilots safely reduce the distance               other key NextGen capabilities that are intended
between aircraft regardless of weather conditions.              to fundamentally change air traffic management.
However, as we reported in October 2010, FAA
has yet to finalize the requirements for advanced               We have made a number of recommendations
ADS-B capabilities, including cockpit display of                to FAA to implement more efficient RNP routes
air traffic information, which can improve safety               and clarify the expected benefits of NextGen
on crowded runways.3 There are also risks as-                   initiatives for enhancing capacity and reducing
sociated with radio frequency congestion and                    delays at already congested airports. FAA has
protecting the ADS-B signal from malicious acts.                taken or planned several actions to address
Addressing these issues will be key to achieve                  these recommendations. However, NextGen’s
NextGen’s mid- to long-term goals.                              challenges are multi-dimensional, and a number
                                                                of critical actions are still needed for successful
FAA must also resolve software-related prob-                    implementation. With billions of taxpayer dollars
lems in the En Route Automation Modernization                   at risk, we will continue to monitor FAA’s progress
(ERAM) program—a $2.1 billion program in-                       as it works to achieve the efficiency and safety
tended to replace the hardware and software that                benefits envisioned for NextGen.
controllers rely on to manage high-altitude traffic.
In February 2011,4 we testified before Congress
that the cost and schedule to complete ERAM


1   RTCA, “NextGen Mid-Term Implementation Task Force Report,” September 9, 2009.


2   OIG Report Number AV-2011-025, “FAA Needs To Implement More Efficient Performance-Based Navigation Procedures and Clarify
    the Role of Third Parties,” December 10, 2010.


3   OIG Report Number AV-2011002, “FAA Faces Significant Risks in Implementing the Automatic Dependent Surveillance-Broadcast
    Program and Realizing Benefits,” October 12, 2010.


4   OIG Testimony Number CC-2011-016, “Actions Needed To Meet FAA’s Long-Term Goals for NextGen,” February 16, 2011.




                                In Focus: Ensuring NextGen Delivers Planned Benefits      12
                                             Highway and Transit Programs

Audits                                               cracks in their structural components, or other
                                                     deficiencies. Given the enormity of the problem
October 18, 2010                                     and the limited funding available to address such
                                                     deficiencies, FHWA’s oversight activities must
Letter to Chairmen Murray and Olver                  incorporate the targeting of higher priority bridge
and Ranking Members Bond and                         safety risks. We have issued three reports on the
                                                     challenges FHWA faces in improving its bridge
Latham Regarding FHWA’s Actions                      oversight. Our most recent report, issued in
in Response to OIG’s January 2009                    January 2009, highlighted FHWA’s limited prog-
Bridge Report                                        ress in implementing a data-driven, risk-based
                                                     bridge oversight approach, and noted that FHWA
Requested in the Senate Appropriations
                                                     could strengthen its role in expanding states’ use
Committee Report accompanying the fiscal year
                                                     of bridge management systems. We made five
2010 appropriations bill for the Departments
                                                     recommendations to address these weaknesses.
of Transportation and Housing and Urban
Development, and Related Agencies
                                                     FHWA has taken action to resolve data errors in
                                                     National Bridge Inventory data files. However, the
According to the Federal Highway Administration
                                                     Agency must follow through on its plan to work
(FHWA), about one-fourth of the Nation’s more
                                                     with states in mitigating higher priority nationwide
than 600,000 bridges have major deterioration,
                                                     bridge safety risks; implement its uniform definition


                                 Semiannual Report to Congress      13
of National Bridge Inspection Standards compli-         comprehensive reports and target action dates,
ance and data-driven, risk-based metrics; work          division offices could not effectively identify
with the American Association of State Highway          problems that require corrective actions, and
and Transportation Officials to update standards        FHWA could not ensure all corrective actions
for element-level data; and provide support to          were taken. Second, FHWA had not defined the
states most in need of assistance with bridge           critical role of its three Directors of Field Services
management systems.                                     in monitoring corrective action plans and re-
                                                        solving issues that could impact their prompt
January 6, 2011                                         and effective implementation. Finally, FHWA’s
Actions Needed to Strengthen the                        limited analysis of NRTs’ results failed to identify
                                                        national trends and emerging risks or assess the
Federal Highway Administration’s                        effectiveness of ARRA risk response strategies.
National Review Teams
Self-initiated                                          We made a series of recommendations to ad-
                                                        dress these vulnerabilities and help FHWA to
FHWA relies on its 52 division offices to provide       strengthen the NRT approach during this critical
oversight of the more than 12,000 state and local       period of ARRA highway construction and allow
highway infrastructure projects funded through          FHWA to enhance its national oversight capa-
ARRA. To independently assess states’ man-              bilities. FHWA actions have responded to our
agement of ARRA funds, FHWA also created                recommendations.
national review teams (NRT). Through NRT as-
sessments, FHWA aims to identify problems that
                                                        February 9, 2011
require corrective actions, as well as national         DOT Can Improve Oversight of
trends and potential new risks. We initiated this
audit to evaluate the NRTs’ effectiveness in con-
                                                        Denali Commission’s Use of Federal
ducting national oversight and mitigating risks         Transportation Funds
posed by the rapid infusion of ARRA dollars.            Requested by former             Ranking     Member
                                                        Christopher S. Bond
While the NRTs’ reviews have been thorough
and have yielded useful data, the increase in the       The remoteness of Alaska’s cities and villages
number of active ARRA projects in 2010 chal-            presents significant transportation challenges
lenged the teams’ abilities to complete timely          for the State’s residents. In 2005, Congress
reviews. Moreover, vulnerabilities in both teams’       created the Denali Access System Program to
and FHWA’s procedures demonstrated the need             fund Alaskan road and waterfront development
for increased oversight. First, teams did not           projects that provide economic opportunities
include all observations in their summary reports       and improve residents’ quality of life, health,
or properly record corrective actions in FHWA’s         and safety. Since 2006, FHWA and the Federal
Recovery Act Database System.             Without       Transit Administration (FTA) have transferred


                                   Highway and Transit Programs      14
more than $100 million to the Denali Commission,         themselves. Nevertheless, we did not find spe-
the independent Federal agency that selects the          cific instances of conflicts of interest. Further,
projects.                                                Federal oversight of the transportation program
                                                         was limited and we found shortfalls with required
Our assessment determined that while the                 project documentation.
Denali Commission had approved appropriate
types of projects, its project selection policy and      We made a series of recommendations for
process were insufficient to ensure that selec-          FHWA to assist the Commission and to ensure
tions were transparent and made objectively.             that Federal transportation funds are spent ef-
Moreover, the Commission’s limited ethics guid-          ficiently, effectively, and appropriately. Based
ance did not ensure that project selection of-           on actions FHWA has taken and our review of
ficials appropriately recused themselves from            the documentation provided in response to our
the selection process. The Commission also               draft report, we consider all recommendations
lacked mechanisms to verify and hold selection           resolved. No further actions are required.
officials accountable for appropriately recusing




                                    Semiannual Report to Congress      15
Investigations                                           release, and an $829,715 fine. On the same
                                                         day, Stewart was sentenced to 12 months and 1
December 7, 2010                                         day in prison, 100 hours of community service,
                                                         3 years of supervised release, an $83,427 fine,
Executives of Iowa Concrete Ready                        and $25,918 in restitution.
Mix Companies Conspired to
                                                         This investigation was worked jointly with the
Manipulate the Concrete Market in                        FBI, U.S. Attorney’s Office, and the Department
Iowa                                                     of Justice Antitrust Division’s Chicago Field
                                                         Office.
Chad Van Zee, President of an Iowa concrete
ready mix company, pled guilty in U.S. District          January 19, 2011
Court, Sioux Falls, Iowa, to charges that he vio-
lated the Sherman Antitrust Act. Van Zee con-            Mississippi State Trooper and Former
spired with Steve Vandebrake, Executive, GCC             Department of Public Safety Employee
Alliance Concrete, Inc., to increase the price on
ready-mix concrete and sell it at collusive and
                                                         Indicted for False Statements Related
noncompetitive prices in Iowa, thus affecting the        to Fraudulent CDLs
interstate trade and commerce of the product.
                                                         Joseph Rigby, a retired Mississippi Department
                                                         of Public Safety Lieutenant Colonel Trooper, and
As early as January 2006 and continuing to as
                                                         Rene Morris, a former Mississippi Department
late as August 2009, Van Zee conspired with
                                                         of Public Safety employee, were charged in a
VandeBrake to fix the prices of ready-mix con-
                                                         superseding indictment in U.S. District Court,
crete sold in Northwest Iowa, by engaging in
                                                         Jackson, Mississippi, with conspiracy and false
meetings to discuss agreements on pricing the
                                                         statements relating to the issuance of commer-
concrete to be sold by their respective compa-
                                                         cial drivers’ licenses (CDL).
nies. Also in connection with this case, Kent
Stewart, President of another Iowa ready mix
                                                         The Mississippi Bureau of Investigation (MBI)
company, pled guilty for his role in conspiring
                                                         requested our assistance in investigating al-
with VandeBrake to fix prices and rig bids for the
                                                         legations that state troopers had aided and
sale of ready-mix concrete in Iowa. The projects
                                                         abetted others in creating (1) false test scores to
affected by this scheme ranged in value between
                                                         obtain CDLs and (2) operational enhancements,
$200,000 and approximately $1 million.
                                                         such as hazmat and passenger endorsements,
                                                         without going through state and Federal testing
VandeBrake was sentenced in U.S. District
                                                         requirements. The troopers were also alleged to
Court, Sioux Falls, Iowa, on February 8, 2011, to
                                                         have aided and abetted others in altering CDL
48 months imprisonment followed by 500 hours
                                                         driver records to reduce speeding infractions to
of community service, 3 years of supervised



                                    Highway and Transit Programs      16
lesser charges and altered the guilty judicial dis-       $70,000 over the past 2 years for information
positions of driver records to aid and abet others        and assistance.
from receiving judgments in accordance with the
State of Mississippi’s due process of law.                OIG is working closely with FMCSA to assist in
                                                          follow-up actions. This investigation is being
This investigation is being conducted jointly with        worked jointly with the FBI.
the FBI and MBI. Assistance from the Federal
Motor Carrier Safety Administration’s (FMCSA)             Note: Indictments, informations, and crimi-
Southern Service Center and its headquarters              nal complaints are only accusations by the
has been instrumental to the progress of the              Government. All defendants are presumed in-
investigation.                                            nocent unless and until proven guilty.

Note: Indictments, informations, and crimi-               February 3, 2011
nal complaints are only accusations by the                Federal Charges against Driver in
Government. All defendants are presumed in-
nocent unless and until proven guilty.                    Fatal Accident Case for Falsifying Daily
                                                          Logbooks
January 21, 2011
                                                          A Federal grand jury in Philadelphia, Pennsylvania,
Federal Motor Carrier Safety                              indicted Valerjis Belovs, charging him with mak-
Supervisor Charged with Taking Bribes                     ing false statements to the U.S. Department
from Company Officials                                    of Transportation. The indictment alleges that
                                                          Belovs falsified his daily driver logbooks to
James H. Wood, a supervisor at FMCSA’s Buffalo,           conceal the fact that he did not comply with rest
New York field office, was arrested and charged           requirements.
with accepting bribes in his official duties from or
on behalf of motor carriers.                              The Federal charges are brought in connec-
                                                          tion with an accident on U.S. Interstate 76 in
Safety consultants for Canadian commercial                Philadelphia, Pennsylvania, in which one per-
trucking companies paid Wood to provide infor-            son died and five others were seriously injured
mation that enabled some trucking companies               when the truck operated by Belovs plowed
to avoid or delay inspections of their vehicles.          into stopped traffic. OIG’s analysis of Belovs’
Wood also allegedly accepted cash to initiate             FMCSA-regulated daily driver logbooks revealed
compliance audits that could put a competitor             that at the time of the accident, he was driving in
out of business, and helped trucking firms get            excess of the maximum allowable hours for op-
friendly audits that allowed them to keep poten-          erating a commercial vehicle. According to the
tially unsafe vehicles on the road. A cooperating         indictment, Belovs made 15 false entries in his
witness admitted to paying Wood approximately             logbooks. In one example, Belovs recorded that



                                     Semiannual Report to Congress      17
he was in a sleeper berth in Wytheville, Virginia,       This is a joint investigation with the Montgomery
when he was actually driving in Pennsylvania.            County, Pennsylvania, District Attorney’s Office
                                                         and the Pennsylvania State Police. FMSCA is
The post-accident investigation revealed that the        assisting with the investigation.
accident was a result of Belovs inability to stop
due to defective brakes. The investigation found         Note: Indictments, informations, and crimi-
that Belovs and the truck’s owner were aware             nal complaints are only accusations by the
of the brakes’ dangerous conditions, yet took            Government. All defendants are presumed in-
no steps to fix the problem. In fact, the truck          nocent unless and until proven guilty.
owner solicited, received, and affixed an illicit
inspection sticker that was obtained from an au-
tomotive shop that did not perform the required
inspection. Belovs, the owner of the truck, and
the individual who provided the illicit inspection
stickers have all pleaded guilty to various state
charges, including vehicular homicide.




                                    Highway and Transit Programs      18
                                             Rail and Maritime Programs and
                                                          Economic Analysis

Audits                                                   implement them. As a result, administration
                                                         and oversight of the program still needs im-
December 7, 2010                                         provement. We made three recommendations
                                                         to strengthen MARAD’s oversight of the Title XI
Title XI Loan Guarantee Program:                         program. MARAD fully concurred with all of our
Actions Are Needed To Fully Address                      recommendations.

OIG’s Recommendations                                    December 22, 2010
Requested by Senate Report 110-131
                                                         Semiannual Report on Amtrak’s
The Title XI Loan Guarantee Program has a                Operational Reforms Savings and
portfolio of guarantees that covers over $2 billion      Financial Performance and Five-Year
in loans, with the potential to expand to almost
$4 billion. We conducted this review to assess
                                                         Financial Plan Review
the Maritime Administration’s (MARAD) efforts to         Required by the Fiscal Year 2010 Consolidated
address recommendations we made in 2003 and              Appropriations Act
2004 to improve oversight of borrowers in the
Title XI portfolio.                                      Our semiannual report to the House and Senate
                                                         Appropriations Committees on Amtrak’s fis-
While MARAD developed new Title XI guidance              cal year 2010 financial performance reported
and information systems, it did not effectively          that Amtrak’s fiscal year 2010 operating loss of


                                    Semiannual Report to Congress      19
$437.5 million was $125.5 million, or 22 percent,         funding. Developing its capital budget on a year-
less than budgeted. This represents a $114.6              to-year basis without knowing how much funding
million improvement over the forecasted loss we           Congress would provide has significantly affect-
reported at mid-year. Amtrak set records in both          ed Amtrak’s ability to maintain safe and reliable
revenue and ridership and is moving towards               infrastructure and equipment, and increased
successfully implementing its fiscal year 2010            its capital program’s annual costs. Amtrak esti-
improvement initiatives, which are reflected in           mates that the “state of good repair” backlog on
three of Amtrak’s key performance indicators              Amtrak-owned and operated Northeast Corridor
that we track and use to measure the company’s            infrastructure alone is approximately $5.2 billion
progress in achieving its goals.                          in fiscal year 2010 dollars. Amtrak also faces
                                                          the renewal and replacement of an aging equip-
The report also includes our review of Amtrak’s           ment fleet, safety and security needs, business
5-Year Financial Plan and fiscal year 2011 an-            improvement initiatives, and compliance with
nual budget, as required by the Passenger Rail            legal requirements, such as accessibility for pas-
Investment and Improvement Act of 2008 (PRIIA).           sengers with disabilities.
We found that the plan, covering fiscal years
2011 through 2015, meets PRIIA requirements,              Amtrak has established four planning documents
although some information that the act requires           that outline the company’s long-term capital
will be delayed for 3 months, primarily due to            requirements and align with the company’s
limitations in Amtrak’s new financial reporting           business and strategic goals. In March 2009,
system. Finally, Amtrak’s fiscal year 2011 budget         Amtrak implemented Decision Lens, a software
falls within funding amounts authorized in PRIIA.         package that it has used to prioritize its capital
                                                          needs in a transparent manner. While Amtrak has
January 27, 2011                                          established a capital spending plan for its ARRA
Amtrak Made Significant                                   funds, the company likely faces challenges in
                                                          making investments by the mandated February
Improvements in its Long-Term Capital                     17, 2011, deadline. Finally, although Amtrak
Planning Process                                          has made progress in developing capital project
Requested by the House Appropriations                     performance metrics, the company still faces
Subcommittee on Transportation, Housing and               challenges in evaluating capital projects, includ-
Urban Development, and Related Agencies                   ing difficulties in identifying metrics for projects
                                                          that cannot be easily evaluated.
PRIIA re-authorized Amtrak for the years 2009
through 2013—the first time in over a decade              We made two recommendations to the Federal
that Amtrak received a multi-year authorization           Railroad Administration (FRA) Administrator
for appropriations to cover its capital spend-            regarding Amtrak’s successful integration and
ing. Amtrak also received $1.3 billion in ARRA            maintenance of recent improvements to its




                           Rail and Maritime Programs and Economic Analysis      20
long-term capital planning processes and effec-            Investigations
tive spending of ARRA funds. FRA completed
actions to address one recommendation and                  October 13, 2010
proposed appropriate actions to address the
other.                                                     Virginia Man and Company Indicted
February 15, 2011
                                                           for False Statements to MARAD and
                                                           Clean Water Act Violations
Quality of Service Provided to Rail
Shippers                                                   In U.S. District Court, Norfolk, Virginia, Jerry
                                                           Askew and Marine Environmental Services, Inc.
Requested by the Conference Report accom-
                                                           (MES)—a tank cleaning company in Portsmouth,
panying the Consolidated Appropriations Act of
                                                           Virginia—were indicted on multiple charges as-
2008
                                                           sociated with the alleged discharge of approxi-
                                                           mately 500,000 gallons of contaminated ballast
For a number of years, commodity shippers                  water into the Elizabeth River and the Hampton
have raised concerns about the service that U.S.           Roads Sanitation District sewer system in viola-
railroads provide, including a lack of available           tion of the Clean Water Act and the Refuse Act.
railcars, delivery of significantly less tonnage           Jerry Askew, general manager of MES, was the
than contracted for, and service disruptions.              subcontractor hired by Bay Bridge Enterprises
Congress directed OIG to examine service                   to remove fluids from the USS Pawcatuck as
disruptions since 2004—in particular, incidents            part of a ship scrapping contract with MARAD.
in which rail carriers failed to make timely ship-         MARAD’s contract required compliance with all
ments of coal, wheat, ethanol, and lumber.                 Federal, state, and local environmental laws and
                                                           regulations.
Rail service guarantees in general have become
more difficult for commodity shippers to obtain,           The indictment also charged Askew and MES
especially through contracts. The quality of               with making material false statements by omit-
freight rail service has varied considerably since         ting the illegal discharges in reports submitted
2004, as indicated by internal railroad data and           to MARAD. Additionally, the indictment charged
interviews with stakeholders, but the information          Askew with allegedly making false statements
railroads make available to the public is insuffi-         to the Environmental Protection Agency,
cient to allow for monitoring of rail service quality.     Department of Defense, and the Coast Guard
Demand levels, derailments, and weather events             when he advised them that he had authority from
have all driven fluctuations in rail service qual-         the Coast Guard to discharge ballast water from
ity since 2004. However, dramatic changes in               the USS Pawcatuck into the Elizabeth River. The
demand for rail service had the greatest impact.           Coast Guard had not advised him or given him
                                                           such permission.



                                      Semiannual Report to Congress      21
Note: Indictments, informations, and criminal com-
plaints are only accusations by the Government.
All defendants are presumed innocent unless and
until proven guilty.




                           Rail and Maritime Programs and Economic Analysis      22
                               Financial and Information Technology

Audits                                                 The audit concluded that management’s de-
                                                       scription of controls presents fairly, in all material
October 5, 2010                                        respects, the controls in operation as of June
                                                       30, 2010. In addition, the controls were suit-
Quality Control Review of Controls
	                   ably designed and operating effectively, except
over the Enterprise Services Center
	                  in the areas of configuration management and
                                                       access controls. Specifically, the Delphi system
Required by the Office of Management and
                                                       operated on a database for which the vendor
Budget
                                                       stopped providing security updates in February
                                                       2009. Furthermore, ESC did not apply in a timely
In accordance with OMB requirements, OIG
                                                       manner critical security updates that the vendor
hired a certified public accounting firm to per-
                                                       had provided, and did not assess the system
form a review of the general, application, and
                                                       for vulnerabilities and any risks associated with
operational controls over DOT’s Enterprise
                                                       them. The Deputy Chief Financial Officer has
Services Center (ESC). The audit covered Delphi
                                                       committed to implementing corrective actions.
Financial Management System operations,
which are used by multiple Federal agencies,
and the Consolidated Automation System for
Time and Labor Entry (CASTLE), which supports
DOT operations only.



                                  Semiannual Report to Congress      23
October 22, 2010                                          November 3, 2010
ARRA Websites Vulnerable to Hackers                       Quality Control Review of the Saint
and Carry Security Risks                                  Lawrence Seaway Development
Self-initiated                                            Corporation’s Audited Financial
                                                          Statements for Fiscal Years 2010 and
ARRA requires unprecedented levels of transpar-
ency and accountability so that the public knows          2009
where tax dollars are being spent. To address             Required by the Government Corporation Control
these requirements, DOT and its Operating                 Act
Administrations deployed various websites
to collect and disseminate ARRA-related                   In its audit of the Saint Lawrence Seaway
information.                                              Development Corporation’s fiscal years 2010
                                                          and 2009 financial statements, Chiampou Travis
In our assessment of these websites and data-             Besaw & Kershner LLP, under contract to the
base systems to determine if they are properly            Seaway, issued a clean (unqualified) audit opin-
configured to minimize the risk of cyber attacks,         ion, and reported no internal control deficiencies.
we found that they contained a combination of
high-, moderate-, and low-risk vulnerabilities,           Complete financial statements are included
which existed because the websites, databases,            in the Saint Lawrence Seaway Development
and servers did not comply with DOT configura-            Corporation’s Annual Report, which also con-
tion security standards. DOT’s Chief Information          tains a copy of our quality control report and
Officer concurred with our findings and recom-            Chiampou Travis Besaw & Kershner’s report.
mendations, and presented appropriate planned
actions and completion dates.                             November 5, 2010
                                                          Quality Control Review of NTSB’s
                                                          Audited Financial Statements for Fiscal
                                                          Years 2010 and 2009
                                                          Required by the Accountability of Tax Dollars Act

                                                          Leon Snead & Company, P.C., under contract
                                                          to OIG and under its supervision, issued a clean
                                                          (unqualified) audit opinion of NTSB’s financial
                                                          statements for fiscal years 2010 and 2009, but
                                                          reported one significant deficiency related to
                                                          NTSB’s need to fully implement a managerial
                                                          cost accounting system.


                                 Financial and Information Technology      24
Complete financial statements are included in            November 15, 2010
NTSB’s Performance and Accountability Report,
                                                         Quality Control Review of DOT’s
which also contains a copy of Leon Snead’s
report.                                                  Audited Consolidated Financial
                                                         Statements for Fiscal Years 2010 and
November 10, 2010
                                                         2009
Quality Control Review of FAA’s                          Required by the Chief Financial Officers Act, as
Audited Financial Statements for Fiscal                  amended
Years 2010 and 2009
                                                         Clifton Gunderson LLP, under contract to OIG
Required by OMB Bulletin 07-04
                                                         and under OIG’s supervision, issued a clean
                                                         (unqualified) audit opinion of DOT’s consolidated
Clifton Gunderson LLP, under contract to OIG
                                                         financial statements for fiscal years 2010 and
and under OIG’s supervision, issued a clean
                                                         2009, but reported five significant deficiencies
(unqualified) audit opinion of FAA’s financial
                                                         in internal controls and four possible instances
statements for fiscal years 2010 and 2009, but
                                                         of reportable noncompliance with laws and
reported one significant deficiency related to
                                                         regulations.
FAA’s need to implement effective security con-
trols in order to protect its financial information
                                                         Clifton Gunderson made 30 recommendations
from unauthorized access, modification, and
                                                         to strengthen financial, accounting, and system
disclosure throughout the year.
                                                         controls. We agree with the recommenda-
                                                         tions and are making no additional ones. The
Complete financial statements are included in
                                                         Department submitted a complete detailed ac-
FAA’s Performance and Accountability Report,
                                                         tion plan to OIG on January 18, 2011, to address
which also contains a copy of Clifton Gunderson’s
                                                         the findings in the audit report.
report.

                                                         Complete financial statements are included in
                                                         DOT’s Agency Financial Report, which also con-
                                                         tains a copy of Clifton Gunderson’s report.




                                    Semiannual Report to Congress      25
November 15, 2010                                     recommendations, along with their milestone
                                                      dates.
Timely Actions Needed To Improve
DOT’s Cybersecurity                                   December 1, 2010
Required by the Federal Information Security          Improper Payments Identified in FAA’s
Management Act of 2002
                                                      Airport Improvement Program
DOT’s $3.1 billion annual information technol-        Self-initiated
ogy portfolio—one of the largest among Federal
civilian agencies—covers over 400 information         In fiscal year 2008, FAA provided over $4 bil-
systems across 13 Operating Administrations,          lion to more than 1,500 grantees in its Airport
nearly two-thirds of which belong to FAA. The         Improvement Program (AIP) to enhance safety,
Department’s financial systems manage and             capacity, and security at airports considered
disburse approximately $90 billion annually. To       significant to national air transportation. DOT has
protect the information systems that support          determined that the program is susceptible to
Federal operations and assets from cyber threats,     improper payments, which are payments for ineli-
the Federal Information Security Management           gible services or to ineligible recipients, duplicate
Act (FISMA) of 2002 requires agencies to de-          and incorrect payment amounts, or payments
velop, document, and implement agencywide             based on insufficient supporting documentation.
information security programs. Consistent with        The infusion of ARRA dollars for AIP—$1.1 billion
FISMA and OMB requirements, our annual review         in fiscal year 2009—increases this risk.
assessed the effectiveness of DOT’s information
security program and practices.                       We found that AIP payments totaling over $13
                                                      million (more than 5 percent) made to 17 of the
During fiscal year 2010, DOT provided security        26 grantees in our sample were improper. More
awareness training to over 90 percent of its em-      than 98 percent of these improper payments were
ployees; five Operating Administrations provided      made by 11 grantees that met FAA’s criteria for
training to 100 percent of their employees. Despite   a moderate-risk rating for making improper pay-
these accomplishments, DOT has not made the           ments but were identified as low-risk. As a result,
needed progress in addressing information secu-       these grantees were allowed to receive funding
rity policy and procedures, enterprise-level con-     without submitting documentation or obtaining
trols, management of information security weak-       prior approval from FAA as required for high-risk
nesses, and system-level controls. We made 27         grantees. In addition, FAA’s review of moderate-
new recommendations to address vulnerabilities        risk grantees’ documentation to support payment
in these areas that urgently need action. The DOT     requests was inadequate. FAA also failed to notify
Chief Information Officer provided a description      OIG of possible bid improprieties in this single-bid
of specific actions to be taken to implement these    contract, as agency regulations require.




                                 Financial and Information Technology  26
We made seven recommendations to improve
FAA’s oversight of its AIP payments. FAA con-
curred with four recommendations and provided
acceptable actions and timeframes for these
four. We requested that FAA re-evaluate its posi-
tion on the remaining three recommendations.
Subsequent to the issuance of our report, FAA
provided acceptable actions and timeframes for
two. Regarding the last recommendation, FAA
agreed to identify the funds that could be recov-
ered but disagreed with the amount of improper
payments we identified during the audit.

February 1, 2011
Inspector General Review of Fiscal
Year 2010 Drug Control Funds and
Performance Summary
Required by Office of National Drug Control Policy
Circular

Our review of NHTSA’s fiscal year 2010 Drug
Control Obligation Summary and Performance
Summary reports did not identify any information
that would reverse management’s assertions that
the reports complied with the Office of National
Drug Control Policy Circular, Drug Control
Accounting, requirements, in all material respects.




                                   Semiannual Report to Congress      27
Financial and Information Technology      28
           In Focus: Financial Statement Audits Continue To
                  Promote Improvements in DOT’s Financial
                                     Management Practices

F   or fiscal year 2010, Congress budgeted nearly
    $77 billion to DOT to carry out its mission, with
roughly $16 billion, or one-fifth, going to FAA. To
                                                           During fiscal year 2010, both DOT and FAA
                                                           earned their third consecutive clean audit opin-
                                                           ions without material weaknesses in internal con-
instituted strong leadership and strengthen ac-            trol. Of particular note, property management—
countability for Agency spending of these Federal          which has plagued DOT and FAA for many years
dollars, the Chief Financial Officers (CFO) Act of         and resulted in disclaimers of opinion, qualified
                                                           opinions, and material weaknesses in internal
1990 directs major Executive Departments and
                                                           control—was not identified as a concern
Agencies to prepare annual financial statements
of trust funds, revolving funds, and commercial            The practice of preparing and auditing annual
activities, and requires Inspectors General, or            financial statements has yielded numerous ben-
Independent Public Accountants engaged by                  efits for DOT and FAA. Overall, the practice has
                                                           helped DOT and FAA enhance financial manage-
Inspectors General, to audit these statements.
                                                           ment systems to provide more complete, consis-
The Government Management Reform Act of
                                                           tent, reliable, and timely information to users and
1994 amended the CFO Act to require Executive
                                                           management, and strengthened internal controls
Branch departments and agencies to prepare                 over financial accounting to mitigate potential
statements covering all accounts and activities,           waste, abuse, and mismanagement. The prac-
beginning in fiscal year 1996. Implementing                tice was also key to establishing the Enterprise
guidance from OMB requires annual audits of                Services Center—which provides consolidated
the key components of Executive Departments,               financial services to the entire Department and
including FAA.                                             other Federal agencies—and to expanding over-


                                      Semiannual Report to Congress      29
sight of DOT’s grant programs and FAA’s prop-                       •   fully implement and enhance grants man-
erty management activities.                                             agement systems to better safeguard ARRA
                                                                        funding;
Despite these accomplishments, additional im-
provements are needed to strengthen financial                       •   migrate its accounting application to a new
management within the Department. For ex-                               operating system in order to protect against
ample, our audit of DOT’s financial statements                          known security vulnerabilities, develop
for fiscal year 2010 identified approximately $1.5                      lifecycle plans, and enhance communica-
billion of unneeded obligations that should have                        tion with the Operating Administrations to
been de-obligated and made available for other                          reduce risks to the general ledger system;
Department priorities. Accordingly, we recom-                           and
mended that DOT standardize the inactive ob-                        •   complete its assessment of four possible
ligation review process and monitor Operating                           violations of the Anti-Deficiency Act and
Administrations to ensure that they liquidate un-                       report confirmed violations as required by
needed obligations in a timely manner. We also                          law.
made a number of recommendations designed
to further strengthen DOT’s financial manage-                      Our fiscal year 2010 reports to DOT and FAA
ment practices, including recommendations that                     included a total of 32 recommendations. DOT
DOT                                                                and FAA concurred with our findings and plan to
  • ensure financial transactions are properly                     implement the majority of the recommendations
      recorded in the general ledger system to                     in fiscal year 2011. The timely implementation of
      reduce the need for corrections to journal                   our recommendations is critical to the Depart-
      entries;                                                     ment and FAA’s continuance of clean audit opin-
                                                                   ions for fiscal years 2011 and beyond.
 •    enhance fund control reporting and monitor-
      ing processes to reduce the risk of funding
      violations occurring, and improve the timely
      reporting of violations;
 •    continue to enhance processes for grant
      accrual estimates in order to more reliably
      measure the cost of grant programs and
      outstanding liabilities;




     In Focus: Financial Statement Audits Continue To Promote Improvements in DOT’s Financial Management Practices      30
                                                    Acquisition and Procurement


Audits                                                    EVW and its wholly-owned subsidiary ElectraStor,
                                                          LLC received funding from FTA through the
                                                          Pioneer Valley Transit Authority (PVTA) to de-
None to report for this period.                           velop a nickel-hydride battery to power buses.
                                                          EVW received approximately $4.2 million in FTA
Investigations                                            funds via congressional earmarks through PVTA
                                                          between 2000 and 2006. A 2006 DOT OIG audit
                                                          indicated that EVW had submitted fraudulent in-
October 20, 2010
                                                          voices for ineligible and questionable expenses
Former ElectraStor Chief Executive                        totaling $703,000. Armitage repeatedly lied to
Officer Pleads Guilty to Fraud Charges                    and attempted to obstruct auditors during the
                                                          course of OIG’s audit.
Michael Armitage, former Chief Executive
Officer of EV Worldwide LLC (EVW), Pittsfield,            This investigation was conducted jointly with
Massachusetts, pled guilty in U.S. District Court,        IRS-CID with assistance from the Defense
Springfield, Massachusetts, to a series of frauds         Contract Audit Agency.
and attempts to avoid paying taxes; lying to finan-
cial institutions and Federal authorities, including
endeavoring to obstruct a DOT OIG audit; and
making a false claim on an FTA project.

                                     Semiannual Report to Congress      31
October 29, 2010                                         November 19, 2010
Former New York Construction                             Two Michigan Construction Firms
Company Vice President Pleads Guilty                     Agree To Pay $1.4 Million To Resolve
in Connection with $19 Million DBE                       False Claims
Fraud                                                    A civil settlement agreement was entered in U.S.
John Athanasiou, former Vice President of                District Court, Detroit, Michigan, on behalf of
Purchasing for Perini Corporation’s Civil Division,      DOT, with John Carlo, Inc. (JCI), prime contrac-
pled guilty in U.S. District Court, Brooklyn, New        tor on a FAA-funded runway project and Angelo
York, to money laundering and conspiracy for             Iafrate Construction Company (AICC), subcon-
his role in a Disadvantaged Business Enterprise          tractor to JCI. JCI and AICC agreed to pay more
(DBE) fraud scheme. The scheme involved                  than $1.4 million to resolve false claims related
several New York area roadway improvement                to the reconstruction of a runway and taxiway at
projects that received DOT funding.                      the Detroit Wayne County International Airport.


Athanasiou admitted that from 1998 to 2001,              It was alleged that JCI and AICC submitted false
he conspired with others to obtain transporta-           claims and statements, claiming that BN&M
tion construction contracts worth approximately          Trucking, a DBE, performed substantial work
$284 million by using three “pass through” DBEs          on the DOT-funded airport runway project con-
to obtain various levels of DBE credit, and relied       tracts, when in fact BN&M did not do the work
on a number of non-DBE contractors to do the             but was merely a pass-through used to give the
actual work. The pass-through DBEs generally             appearance of DBE participation. DBE regula-
received between 3 and 5 percent of the subcon-          tions required JCI and AICC to commit to sub-
tracts’ value as fees to process payroll and other       contracting with DBEs, and the DBEs to perform
required paperwork. The DBE owners and others            a “commercially useful function.”
involved in this conspiracy have pled guilty and
were prepared to testify for the Government in           In addition to the $1.4 million payment to resolve
an impending criminal trial. Perini Corporation          civil claims, AICC has entered into a separate
has paid $9.75 million pursuant to a negotiated          administrative agreement with DOT to ensure
civil settlement to resolve its criminal and civil       future compliance with DBE requirements.
liabilities.
                                                         This investigation was coordinated with FAA and
This investigation was conducted jointly with the        the Wayne County Airport Authority, which first
Federal Construction Fraud Task Force, whose             brought the case to the government’s attention.
members include the IRS-CID, Department of
Labor OIG, and the New York City Department
of Investigation.


                                     Acquisition and Procurement      32
November 29, 2010                                       subcontractors performed the work. Schiavone
                                                        executed two contracts with the New York
New Jersey Construction Firm Agrees
                                                        Metropolitan Transit Authority (MTA) totaling
To Pay $20 Million To Settle Fraud                      approximately $350 million. Both of these con-
Allegations                                             tracts received FTA grant funds, which required
                                                        that Schiavone comply with the DBE program.
Schiavone Construction Co. LLC, a New Jersey
construction company, signed a civil settlement         In addition to the $20 million civil forfeiture,
agreement in U.S. District Court, Brooklyn, New         Schiavone adopted a new compliance program
York, in which Schiavone agreed to pay a $20            and hired an independent monitoring firm to
million civil forfeiture related to DBE fraud on        ensure future compliance with DBE and MWBE
various public works contracts. As part of the          requirements.
resolution, Schiavone admitted that between
2002 and 2007, former employees fraudulently            This settlement is the result of a joint investiga-
submitted utilization reports on federally funded       tion conducted with the U.S. Attorney’s Office,
public works contracts that falsely represented         the Department of Labor, the New York City
work was performed by certified DBEs and mi-            Department of Investigation, the MTA OIG, the
nority- and women-owned business enterprises            New York State Attorney General’s Office’s
(MWBE), when in fact non-DBE and non-MWBE               Organized Crime Task Force, and IRS.




                                   Semiannual Report to Congress      33
Acquisition and Procurement      34
                                                               Departmentwide Issues

Audits                                                  (3) maintaining momentum in addressing human
                                                        factors and improving safety oversight of the
November 15, 2010                                       aviation industry; (4) improving oversight of high-
                                                        way, transit, and pipeline infrastructure; (5) iden-
DOT’s Fiscal Year 2011                                  tifying sufficient funding sources to support fu-
Top Management Challenges                               ture Federal investment in surface transportation
                                                        infrastructure; (6) transforming FRA to address
Mandated by OMB Circular A-136
                                                        significantly expanded oversight responsibilities;
                                                        (7) advancing NextGen while ensuring the safe
The top management challenges facing the
                                                        and efficient operation of the National Airspace
Department in fiscal year 2011 are (1) ensur-
                                                        System; (8) implementing processes to improve
ing transparency and accountability in DOT’s
                                                        DOT acquisitions and contract management; and
ARRA programs; (2) maintaining momentum in
                                                        (9) improving the Department’s cybersecurity.
the Department’s oversight of highway, motor
vehicle, hazardous materials, and transit safety;




                                   Semiannual Report to Congress      35
January 13, 2011
Letter to Senators Grassley and
Coburn Regarding Information in
Support of OIG’s Mission
Our second biannual response to Senators
Grassley and Coburn provided a summary of our
non-public management advisories and closed
investigations, as requested by the Senators on
April 8, 2010.




                                    Departmentwide Issues      36
                                                          Other Accomplishments


OIG’s other accomplishments and contributions extend beyond the legal reporting requirements of the
Inspector General Act.


October 27, 2010                                         October 28, 2010
New Audit Guide on Cost and                              Presentation on Suspension and
Price Analysis for Noncompetitive                        Debarment Audit Work
Procurements                                             OIG’s Offices of Acquisition and Procurement
In March 2009, the President called on Federal           Audits and Chief Counsel discussed OIG’s sus-
agencies to examine their use of noncompetitive          pension and debarment (S&D) audit work at the
contracts. Because a contractor is assured of re-        2010 OIG Suspension and Debarment Workshop.
ceiving the award on a noncompetitive contract,          Presenters highlighted key findings from OIG’s
there is little incentive to keep the contractor from    January 2010 audit report, DOT’s Suspension and
proposing a price that is higher than needed for         Debarment Program Does Not Safeguard against
the procurement.                                         Awards to Improper Parties.


OIG’s Office of Acquisition and Procurement Au-          Conference attendees included attorneys, investi-
dits created a standard audit guide for reviewing        gators, and auditors from across the Federal gov-
the quality of cost and price analyses that agencies     ernment. Topics presented by other participants
perform to prevent overpayments for noncompeti-          included an IBM suspension case, an overview
tive awards. The guide provides detailed steps to        of the Federal Financial Fraud Enforcement Task
obtain sufficient support for proposed prices, and       Force, mortgage debarments, ARRA and exclud-
highlights methods for effective cost and price          ed parties, and S&D actions and procedures. The
analyses. Application of the guide’s procedures          event was hosted by the S&D Subcommittee of
can help agencies improve their analyses and             the Council of the Inspectors General on Integrity
help prevent overpayments for noncompetitive             and Efficiency, Investigations Committee, in con-
contracts. The guide is posted on the Federal            junction with the National Science Foundation’s
Audit Executive Council’s website at http://www.         7th Annual Grant Fraud Workshop.
ignet.gov/pande/faec/caguidecpa.pdf.




                                     Semiannual Report to Congress      37
March 21, 2011
OIG Prompts New Bridge Safety
Oversight Initiative
Over the last several years, OIG’s Office of Highway
and Transit Audits has reported on fundamental
weaknesses in FHWA’s oversight of its bridge in-
spection program. In response, FHWA introduced
a new initiative to strengthen its oversight of the
program and include significant actions that will
help ensure the safety of our Nation’s bridges.

FHWA completely overhauled its oversight pro-
cess and rolled out its data-driven, risk-based
approach to bridge safety oversight in March
2011. These actions are in direct response to rec-
ommendations from our January 12, 2009, report,
National Bridge Inspection Program: Assessment
of FHWA’s Implementation of Data-Driven, Risk-
Based Oversight, and from our January 10, 2010,
report, Assessment of FHWA Oversight of the
Highway Bridge Program and the National Bridge
Inspection Program. We most recently reported
on FHWA’s progress on October 18, 2010, in Let-
ter to Chairmen Murray and Olver and Ranking
Members Bond and Latham Regarding FHWA’s
Actions in Response to OIG’s January 2009 Bridge
Report.




                                       Other Accomplishments    38
                                        Work Planned and In Progress


This section describes OIG’s work planned or in progress for October 1, 2010, through March 31,
2011. The work focuses on the Department’s Strategic Plan and its core missions of transportation
safety and mobility, and responds to requests by Administration officials and Congress. We take
into account the need to support DOT’s most critical programs and to ensure that the Department’s
resources are protected from fraud and waste.




AVIATION AND SPECIAL PROGRAMS
IN PROGRESS

FAA’s Progress in Developing                          of recommendations made by RTCA, an advisory
                                                      committee made up of government, industry, and
and Implementing NextGen
                                                      academic organizations. Specifically, we are de-
Transformational Programs                             termining the extent to which FAA is (1) respond-
                                                      ing to the task force’s recommendations, includ-
At the request of the Chairmen and Ranking Mem-
                                                      ing budget adjustments and the establishment of
bers of the Senate Committee on Commerce, Sci-
                                                      mechanisms for continued industry collaboration,
ence, and Transportation, and its Subcommittee
                                                      and (2) addressing barriers that may hinder FAA’s
on Aviation Operations, Safety, and Security, OIG
                                                      ability to successfully implement the recommen-
is assessing FAA’s progress with five NextGen         dations.
transformational programs, including a satellite-
based surveillance system and new ways for
controllers and pilots to share data. Specifically, DOT and FAA Oversight of Domestic
OIG is (1) reviewing the status of the programs’ Code-Share Relationships
cost, schedule, and performance baselines and
(2) determining FAA’s progress in implementing At the request of the former Chairmen of the
these programs and identifying risks in achieving House Committee on Transportation and Infra-
NextGen goals.                                      structure and its Subcommittee on Aviation, OIG
                                                    is conducting an audit of DOT and FAA oversight
                                                    of code-share agreements between domestic
FAA’s Implementation of RTCA’s                      air carrier partners. Our audit objectives are to
NextGen Task Force Recommendations (1) examine DOT’s and FAA’s legal authorities to
                                                    review agreements between mainline air carriers
At the request of the former Chairmen and Ranking and their regional partners, (2) assess how main-
Members of the House Committee on Transporta- line air carriers ensure that their regional partners
tion and Infrastructure, and its Subcommittee on have the same level of safety, and (3) determine
Aviation, OIG is assessing FAA’s implementation whether the public has adequate information on


                                  Semiannual Report to Congress      39
air carriers to make informed decisions when             PHMSA Management and Oversight
purchasing airline tickets.
                                                         of Hazardous Materials Emergency
                                                         Preparedness (HMEP) Grants Program
Job Creation under the American
Recovery and Reinvestment Act of                  At the request of the former Chairman of the
                                                  House Committee on Transportation and Infra-
2009                                              structure, OIG is reviewing PHMSA’s Management
                                                  and Oversight of Hazardous Materials Emergency
At the request of the former Ranking Member
                                                  Preparedness Grants Program. Our objectives
of the House Committee on Transportation and
                                                  are to (1) evaluate the effectiveness of PHMSA’s
Infrastructure, OIG is reviewing job creation and
                                                  policies, processes, and resources, including
reporting associated with ARRA funding for two
                                                  staff and information technology, to execute the
FAA accounts—the Airport Improvement Program
                                                  program; (2) outreach to states, local govern-
(AIP) and Facilities and Equipment (F&E). OIG is
                                                  ments, and tribal organizations to educate them
determining whether (1) AIP and F&E projects
                                                  about HMEP and the use of Federal funds; and
funded under ARRA preserve and create jobs
                                                  (3) program oversight to ensure Federal funds are
and (2) the reporting of job data satisfies ARRA
                                                  used for eligible activities and in accordance with
requirements.
                                                  Federal law.

Training and Staffing at Critical
                                                         FAA’s Implementation of the En Route
Facilities
                                                         Automation Modernization (ERAM)
The House Appropriations Subcommittee on                 System
Transportation, Housing and Urban Development,
and Related Agencies requested OIG to deter-             At the request of the former Chairman and Rank-
mine whether FAA’s training protocols ensure that        ing Member of the House Appropriations Sub-
the most critical air traffic control facilities have    committee on Transportation, Housing and Urban
enough qualified controllers to maintain the safety      Development, and Related Agencies, OIG is
of the National Airspace System. Accordingly,            reviewing FAA’s implementation of ERAM—a $2.1
our audit objective is to assess FAA’s plans for         billion program to replace existing hardware and
providing these facilities with appropriate control-     software at facilities that manage high-altitude
ler staffing, training resources, and other support      traffic in the National Airspace System. Our
necessary to ensure the continuity of facility op-       objectives are to (1) determine FAA’s progress in
erations.                                                implementing ERAM and addressing persistent
                                                         software problems and (2) identify the risks these
                                                         problems present to FAA’s plans for implementing
                                                         NextGen.




                                     Work Planned and In Progress      40
FAA’s Air Traffic Facility Realignment                    OIG is assessing FAA’s oversight of ARRA grants
                                                          to determine whether FAA is preventing improper
and Consolidation Efforts
                                                          payments and ensuring ARRA funds are used
At the request of the former Ranking Members of           only for authorized purposes.
the House Transportation and Infrastructure Com-
mittee and its Subcommittee on Aviation, OIG is           FAA Oversight of Aircraft Repair
reviewing FAA’s air traffic facility realignment and
consolidation efforts. Our audit objectives are           Stations
to assess (1) FAA’s current plans for realigning
                                                          At the request of the former Chairman of the House
and consolidating its air traffic facilities; (2) FAA’s
                                                          Transportation and Infrastructure’s Subcommittee
process for evaluating the feasibility and cost ef-
                                                          on Aviation, OIG is assessing U.S. airlines’ use of
fectiveness of these plans; and (3) the major cost,
                                                          aircraft repair stations. The objectives of the audit
technical, and workforce challenges involved with
                                                          are to (1) examine changes that FAA has made
realigning and consolidating air traffic facilities.
                                                          to its repair station oversight, (2) assess the ef-
                                                          fectiveness of these changes in bolstering FAA’s
PHMSA Oversight of Hazardous                              oversight of both domestic and foreign repair
                                                          stations, and (3) identify challenges to effective
Liquid Pipeline Operator Integrity
                                                          oversight that FAA still needs to address.
Management Programs
In the United States, about 350 operators control         Terminal Automation Modernization
over 175,000 miles of hazardous liquid pipelines,         Program
which carry crude oil, refined petroleum products,
and other highly volatile liquids. To reduce the          FAA plans to invest about $1 billion through 2018
likelihood of pipeline failures, the Federal Gov-         to modernize terminal automation systems that
ernment requires pipeline operators to maintain           controllers rely on to manage air traffic near air-
integrity management programs (IMP) for these             ports. This effort is key to replacing aging equip-
pipelines. The objective of this audit is to assess       ment and achieving FAA’s goals for NextGen. Our
the adequacy of PHMSA’s oversight and enforce-            audit objectives are to determine whether (1) FAA’s
ment of hazardous liquid pipeline operators’              acquisition strategy for terminal modernization ef-
adherence to IMP requirements.                            fectively addresses technological and operational
                                                          risks, and (2) FAA’s terminal modernization efforts
                                                          are compatible with key NextGen programs and
FAA Oversight of ARRA Expenditures
                                                          schedules.
ARRA requires Inspectors General to conduct au-
dits of ARRA-funded projects to ensure the effec-
tive and efficient use of ARRA funds. Accordingly,




                                      Semiannual Report to Congress      41
FAA Implementation of Its Wildlife                      PLANNED
Hazard Mitigation Program
                                                        Air Traffic Safety Action Program
In January 2009, US Airways Flight 1549 incurred        (ATSAP)
multiple bird strikes and was forced to land in the
Hudson River. This accident and similar incidents       ATSAP is a voluntary safety reporting program for
call into question the effectiveness of oversight       employees at all air traffic control facilities. The
and enforcement of airports’ compliance with            program encourages employees to report safety
FAA’s Wildlife Hazard Mitigation Program. We            and operational concerns to build awareness of
plan to assess FAA’s (1) policies and guidance          events that may lead to safety breakdowns so
for monitoring, reporting, and mitigating wildlife      that actions can be taken to reduce risk. We plan
hazards; (2) coordination with various Federal,         to assess FAA’s implementation of ATSAP and
state, and local government agencies responsible        identify any improvements necessary for FAA to
for reducing wildlife hazards at airports and their     maximize program benefits.
vicinities; and (3) oversight and enforcement of
airports’ adherence to wildlife hazard reporting
                                                        FAA’s Methodologies to Measure, Rate,
and assessment requirements and implementa-
tion of wildlife hazard management plans.               and Mitigate Risks of Operational
                                                        Errors
FAA’s National Airspace System                        The number of recorded operational errors (OE)
Certification Process                                 committed by FAA air traffic controllers has risen
                                                      dramatically over the past year, but FAA has not
At the request of the former Chairmen of the clearly explained the reasons for this rise. FAA
House Committee on Transportation and Infra- recently modified its process for measuring, rat-
structure and its Subcommittee on Aviation, OIG ing, and mitigating the risk of OEs. We plan to
is assessing the impact of a 2007 revision to FAA’s review this process.
certification policy for contractor-owned air traffic
control systems. In accordance with the revision,
FAA certification remains a requirement for FAA- FAA and Industry Efforts To Enhance
owned systems but not for contractor-owned sys- Airline Safety
tems. Our objectives are to (1) assess the impact
of FAA’s revised certification policy on the safety The February 2009 crash of Colgan Air Flight
and integrity of air traffic control systems, such as 3407 prompted Congress to pass the Airline
the Automatic Dependent Surveillance-Broadcast Safety and FAA Extension Act of 2010 to estab-
(ADS-B) system, and (2) identify vulnerabilities lish higher standards for pilot training and a new
that FAA faces in relying on private sector owner- pilot fatigue rule. FAA also announced a Call to
ship of key air traffic management systems.           Action plan focused on reducing risks at air carri-



                                    Work Planned and In Progress      42
ers, promoting safety best practices, and seeking        that another review of the program’s safety ben-
industry compliance with safety initiatives. At the      efits, costs, and overall value to users would be
request of the Ranking Members of the House              beneficial. Accordingly, we will evaluate its safety
Committee on Transportation and Infrastructure           aspects, cost effectiveness, and user satisfaction.
and its Subcommittee on Aviation, we will review
FAA and industry efforts to enhance safety. Ac-
cordingly, we will (1) examine the progress that
                                                         Airline Industry Performance—
FAA and industry have made in implementing key           A Review of the Aviation Industry in
elements of the Airline Safety Act and the Call to       2010 and 2011
Action initiatives; (2) assess the effectiveness of
actions taken; and (3) identify any implementation       This performance review, the 11th in a series,
challenges that FAA and industry need to address.        will provide comprehensive analyses of aviation
                                                         industry trends, including aviation system perfor-
                                                         mance, demand and capacity for domestic and
FAA’s Aviation Safety Inspector and                      international flights, airline financial health, small
Analyst Staffing                                         community air service, and customer service.
                                                         Our specific objective will be to assess the current
The Airline Safety and FAA Extension Act of 2010         status of the aviation industry and its impact on
also directed OIG to review staffing levels for          airline customers.
FAA’s aviation safety inspectors and operations
research analysts. The 2009 Colgan crash raised
concerns about the experience and numbers of             Implications of Airline Mergers on
inspectors and analysts that have been assigned          Small Communities
to oversee air carriers and review inspection data.
Accordingly, we will assess the adequacy of the          Since 2008, three major airline mergers have
numbers and experience levels of aviation safety         occurred or been announced, encompassing 60
inspectors and evaluate FAA’s process for assign-        percent of the domestic scheduled airline capac-
ing inspectors and analysts to air carriers.             ity. The objective of this audit will be to assess
                                                         how recently approved mergers may have af-
                                                         fected airline service to small communities.
FAA’s Federal Contract Tower Program
The House Committee on Appropriations re-
quested OIG to review FAA’s Contract Tower
Program, which employs contractors to provide
air traffic control services at low activity airports
at lower costs than FAA could otherwise provide.
The Committee noted that it has been nearly a de-
cade since OIG last evaluated the program, and



                                     Semiannual Report to Congress      43
HIGHWAY AND TRANSIT PROGRAMS 

IN PROGRESS

FTA Oversight of Major Transit Projects FTA’s Challenges to Improving
in New York City                        Oversight of Rail Transit Safety
OIG is conducting a series of audits of four            OIG is conducting an audit of issues that may im-
major transit projects in New York City, totaling       pact the Department’s legislative proposal to de-
approximately $7 billion in Federal funding: the        velop and implement an enhanced Federal role in
Fulton Street Transit Center, Port Authority Trans-     oversight of rail transit safety. Our audit objective
Hudson Terminal, Second Avenue Subway, and              is to identify potential challenges the Department
East Side Access projects. Vigilant oversight of        will likely face in developing and implementing
these projects is critical to maximizing the return     enhanced rail transit safety.
on the significant Federal investment, including
ARRA funding, and completing them in a timely
manner. OIG is evaluating the effectiveness of
                                                        NHTSA’s Office of Defects
FTA’s oversight of each project and assessing           Investigation
whether ARRA goals and requirements are being
                                                    At the request of several members of Congress
met.
                                                    and the Secretary of Transportation, OIG is
                                                    reviewing actions taken by NHTSA’s Office of
FTA Oversight of the Dulles Corridor                Defects Investigation (ODI) with regard to Toyota
Metrorail Project                                   recalls and the overall process for identifying and
                                                    investigating safety defects. Our audit objectives
OIG is conducting an audit of FTA’s oversight of are to (1) identify lessons learned from recent ODI
Phase 1 of the Dulles Corridor Metrorail Project in investigations into allegations of sudden unin-
the Washington, D.C., metropolitan area. This in- tended accelerations by Toyota vehicles and (2) to
frastructure project involves a Federal investment determine whether ODI has information systems
of $900 million through FTA’s New Starts program, and processes to ensure that it receives timely
including $77.3 million in ARRA funds. Our audit notification of potential safety defects and takes
objectives are to (1) evaluate the effectiveness of action to identify and address such defects.
FTA’s oversight of the Dulles Corridor Metrorail
Project, and (2) assess potential safety concerns.




                                    Work Planned and In Progress      44
FHWA Oversight of LPA-Administered                new entrant motor carriers that try to evade en-
                                                  forcement; (2) developing the capability to better
Highway Projects
                                                  identify and track motor carriers whose vehicles
OIG is assessing FHWA’s oversight of local public are not in compliance with Federal safety require-
agencies’ (LPA) handling of Federal-aid projects. ments; and (3) revising regulations, implementing
ARRA will increase Federal-aid LPA highway new rulemakings, or obtaining increased statutory
funding by an additional $8 billion, prompting authority.
FHWA to identify these LPA projects as high risk.
Accordingly, we are assessing the effectiveness OST’s Transportation Investments
of FHWA’s actions to improve state oversight of
LPA projects.                                     Generating Economic Recovery
                                                       (TIGER) Grants
FHWA Oversight of High-Dollar ARRA                     OIG is conducting an audit of DOT’s oversight of
Highway Projects                                       the TIGER discretionary grant program. ARRA
                                                       created this $1.5 billion program to fund surface
OIG is conducting an audit to determine if             transportation infrastructure projects, to be ad-
FHWA’s oversight of selected high-dollar ARRA          ministered by the Office of the Secretary (OST).
projects has resulted in project compliance with       Our audit objectives are to evaluate (1) OST’s
key Federal-aid highway requirements for cost,         management of the TIGER program, including
quality, and construction schedule. ARRA pro-          performance measures for determining the eco-
vided $27.5 billion to FHWA for ARRA highway           nomic and transportation-related impact of each
infrastructure investments and requires FHWA to        project, and (2) each Operating Administration’s
ensure that states receiving ARRA funds adhere         oversight of its TIGER projects.
to all Federal-aid highway program requirements.

                                                       FTA’s Charter Bus Regulation
FMCSA’s Response to NTSB
                                                       In the report accompanying the Fiscal Year
Recommendations on New Entrant
                                                       2010 Transportation and Housing and Urban
Safety Assurance Program                               Development Appropriations bill, the Senate Ap-
                                                       propriations Subcommittee on Transportation,
OIG is conducting an audit to evaluate FMCSA’s
                                                       Housing and Urban Development, and Related
response to NTSB recommendations for improv-
                                                       Agencies requested that OIG conduct an audit of
ing the New Entrant Safety Assurance Program
                                                       FTA’s implementation of the charter bus regula-
after a 2008 motor coach crash in Victoria, Texas,
                                                       tion. This regulation generally prohibits a transit
in which one person was killed and 46 others
                                                       agency that receives Federal transit grant funds
were injured. Our audit objectives are to assess
                                                       from providing charter services, such as shuttle
FMCSA’s response to NTSB recommendations
                                                       buses to sporting events, when a private charter
for (1) improving oversight to detect and deter


                                   Semiannual Report to Congress      45
operator is interested in providing the service. Our PLANNED
audit objectives are to (1) assess the impact of
the charter bus regulation on the cost, availability, FHWA’s Stewardship and Oversight
and quality of charter services related to specific Agreements
events and markets and (2) evaluate FTA’s over-
sight of the charter service regulation.              OIG plans to assess whether FHWA’s stewardship
                                                      and oversight agreements clearly define FHWA
                                                      and state oversight roles and responsibilities,
FTA’s Regional Oversight of Transit
                                                      and address laws and regulations. Federal law
Grants                                                requires FHWA and each state to enter into an
                                                      agreement documenting the extent to which the
OIG plans to assess FTA’s regional oversight of
                                                      state assumes FHWA’s responsibilities under Title
transit grants to determine whether the efforts
                                                      23 of the U.S. Code.
ensure proper stewardship of Federal funds and
prevent fraud, waste, and abuse. For each se-
lected regional office, we will assess the use of Cross-Border Trucking
key oversight tools to identify grantees’ manage-
ment weaknesses and make funding decisions, OIG plans to conduct its annual assessment of
and evaluate efforts to ensure that grantees cor- FMCSA’s compliance with eight safety criteria
rect management weaknesses.                           for the North American Free Trade Agreement’s
                                                      provisions on cross-border trucking, as set forth
                                                      in Section 350(c) of the Fiscal Year 2002 Depart-
                                                      ment of Transportation and Related Agencies Ap-
                                                      propriations Act and subsequent appropriations
                                                      legislation.




                                   Work Planned and In Progress      46
RAIL AND MARITIME PROGRAMS AND ECONOMIC ANALYSIS

IN PROGRESS
Amtrak Semiannual Report on                             Adequacy of Measures Taken To
Operational Savings                                     Address the Solvency of the Highway
As requested by Congress in the annual ap-
                                                        Trust Fund
propriations process, OIG is issuing semiannual         At the request of the Ranking Member of the
reports to the House and Senate Committees on           Senate Budget Committee, OIG is conducting
Appropriations on Amtrak’s savings from opera-          an audit to evaluate the reasonableness of DOT’s
tional reforms and financial performance.               policies and procedures to monitor the solvency
                                                        of the Highway Trust Fund, and to compare these
Utilization of Amtrak’s Maintenance                     policies and procedures to those used by FAA to
                                                        manage the Airport and Airway Trust Fund.
Facilities
In accordance with Section 227 of the Passenger         Causes of Amtrak Delays and Intercity
Rail Investment and Improvement Act (PRIIA),
OIG is auditing Amtrak’s utilization of its existing
                                                        Passenger Rail Service Bottlenecks
equipment maintenance and repair facilities. Our        OIG is using an econometric model to identify
objectives are to examine (1) Amtrak’s use of its       bottlenecks along Amtrak routes and determine
three back shop facilities; (2) the productivity of     the causes. In particular, we will determine which
these facilities; and (3) the extent to which Amtrak    of these bottlenecks are due to congestion or
is maximizing opportunities to use each facility,       relative lack of labor capacity, and identify loca-
including the provision of maintenance and repair       tions that warrant more in-depth examination as
services to other rail carriers.                        candidates for rail infrastructure investments.

High-Speed Rail Program State-Freight                   High-Speed Rail Forecasting Best
Railroad Access Agreements                              Practices
OIG is conducting an audit to evaluate (1) the ex-      OIG is performing an analysis to (1) assess the
tent to which FRA’s interim guidance for railroad       strengths and weaknesses of various methodolo-
access agreements includes provisions intended          gies used to develop high-speed rail and intercity
to ensure those agreements support High-Speed           passenger rail ridership and revenue forecasts,
Intercity Passenger Rail (HSIPR) program goals          cost estimates, and public benefits valuations,
and (2) whether final railroad access agreements        and (2) identify best practices for preparing these
comply with the requirements set forth in FRA’s         forecasts.
interim guidance.

                                    Semiannual Report to Congress      47
FRA Implementation of PRIIA                              methods, and (3) identify any factors that allow
                                                         both the private and public sectors to derive value
Provisions
                                                         from PPP transactions.
Pursuant to Section 221 of PRIIA, we are con-
ducting an audit to (1) evaluate FRA’s progress in       PLANNED
implementing its PRIIA responsibilities; (2) assess
the effectiveness of FRA’s process for implement-        Amtrak’s Financial Accounting and
ing grants, studies, and oversight required by
PRIIA; and (3) determine the impact of PRIIA’s
                                                         Reporting System
implementation on rail stakeholder operations.           As required by Section 203(b) of PRIIA, OIG plans
Amtrak’s Inspector General is conducting a con-          to conduct a review of Amtrak’s new, PRIIA-
current assessment of the company’s progress in          mandated financial accounting and reporting
implementing PRIIA’s Amtrak-related provisions.          system to determine whether it accomplishes the
                                                         purposes for which it was intended.
FRA Progress in Developing a Grants
Management Framework                                     FRA Progress in Developing Safety
The new HSIPR program greatly expanded FRA’s
                                                         Standards for Intercity Passenger Rail
responsibilities. One new responsibility requires        FRA’s April 2009 strategic plan for high-speed
the Agency to distribute $10.5 billion in grants to      rail identifies the need to consider changes to
states for passenger rail-related projects in a short    the Agency’s safety regulations to accommodate
amount of time. The objectives of this audit are to      high-speed rail development. We plan to evaluate
(1) evaluate FRA’s grant management frameworks,          FRA’s progress in developing safety standards for
(2) evaluate FRA’s process for determining its           high-speed intercity passenger rail.
workforce needs, and (3) identify the challenges
FRA faces in disbursing funds to states.
                                                         State Capacity To Meet High-Speed
Financial Analysis of Transportation                     Rail Demands
Related Public-Private Partnerships                 OIG plans to (1) review and evaluate states’ capa-
                                                    bilities to plan, design, and manage high-speed
(PPP)
                                                    rail projects; (2) determine what constitutes a
OIG is performing an analysis to (1) determine the strong state passenger rail department and how
extent to which PPPs can address transporta- those departments were developed; and (3)
tion infrastructure funding needs, (2) identify any provide examples of how state capacity was cre-
disadvantages to the public sector of PPP trans- ated to manage other state-led federally funded
actions compared to more traditional financing programs, such as Federal-aid highways.



                                     Work Planned and In Progress      48
FINANCIAL AND INFORMATION TECHNOLOGY
IN PROGRESS
Security and Controls of the Automatic Vulnerability Assessment of FAA’s
Dependent Surveillance-Broadcast       Operational Air Traffic Control (ATC)
System                                 System
At the request of the former Chairmen and Ranking       At the request of the former Ranking Members of
Members of the House Committee on Transporta-           the House Transportation and Infrastructure Com-
tion and Infrastructure and its Subcommittee on         mittee and the Subcommittee on Aviation, we are
Aviation, we are reviewing the ADS-B system—an          conducting an information technology vulnerabil-
important part of FAA’s plans for NextGen. Our          ity assessment of FAA’s operational ATC system.
audit objectives are to determine whether the           We have contracted with Clifton Gunderson LLP,
contractor (1) has properly defined and satisfied       an independent public accounting firm, to perform
ADS-B’s security requirements specified in the          the audit subject to OIG oversight. The audit’s
contract, (2) follows FAA’s security architecture in    objective is to determine whether operational ATC
its development of ADS-B, and (3) has identified        systems can be accessed by unauthorized users
and mitigated ADS-B’s security risks.                   from inside ATC facilities through FAA’s Mission
                                                        Support/Administrative System Network.
DOT Implementation of Single Audit
Recommendations and Cost Recovery                       Quality Control Review of Standards
                                                        for Attestation Engagements (SSAE-16)
The objectives of this audit are to determine if
DOT’s Operating Administrations have (1) issued
                                                        Review of DOT’s Enterprise Services
management decisions approving grantees’ cor-           Center
rective action plans, (2) ensured grantees’ prompt
implementation of corrective actions, (3) taken         OIG is performing a quality control review of
timely action to recover questioned costs, and          the audit performed by an independent public
(4) used single audit results to identify grantees      accounting firm and determining whether (1)
requiring close monitoring.                             management’s description of the service organi-
                                                        zation’s systems are fairly presented, (2) controls
                                                        are suitably designed, and (3) controls operate ef-
                                                        fectively from October 1, 2010, to June 30, 2011.




                                    Semiannual Report to Congress      49
Improper Payment Reporting Under                         The U.S. Merchant Marine Academy’s
Executive Order 13520                                    Technical Security Controls
OIG is conducting an audit of improper payment           OIG is assessing the U.S. Merchant Marine Acad-
reporting under Executive Order 13520, which             emy’s technical security controls for its local area
incorporates new reporting requirements for              network (LAN) and website. Our audit objectives
agencies and new oversight requirements for              are to (1) evaluate the implementation of the
Inspectors General for programs with the high-           academy’s LAN and website technical security
est occurrence of improper payments. Our audit           controls intended to prevent intrusion and protect
objectives are to determine whether the improper         personally identifiable information and (2) identify
payment amounts presented were accurate and              security vulnerabilities and weaknesses.
whether the agency complied with requirements
for high priority programs.
                                                         Implementation of DOT’s Enterprise
                                                         Architecture for Information Technology
Security Protection of Airmen Registry
                                                         Investment
Systems
                                                         OIG is performing a review of DOT’s development
OIG is assessing FAA’s registry systems for airmen       and implementation of an enterprise architecture
certification, rating, and authorization to deter-       to direct future information technology system
mine whether (1) personally identifiable informa-        development efforts. The audit objectives are
tion is secure from unauthorized use or access,          to determine whether DOT (1) has established
(2) information in the registry systems is sufficient    adequate baseline and target architectures; (2)
for managing aircraft registrations and airmen’s         has effective management practices, policies,
records, and (3) registry contingency planning           and processes for developing, implementing,
ensures FAA’s continued ability to accomplish its        maintaining, and overseeing the program; and (3)
mission of aviation safety.                              is reporting actual results from the program.

DOT’s Information Security Program                       Quality Control Review of DOT’s Fiscal
and Practices for Fiscal Year 2011                       Years 2011 and 2010 Consolidated
As mandated by the Federal Information Security          Financial Statements, and FAA’s and
Management Act of 2002, OIG is performing its            NTSB’s Financial Statements
annual review of DOT’s information security pro-
gram and practices to determine their effective- OIG is performing a quality control review of the
ness.                                            audits performed by independent public account-
                                                 ing firms to determine if the audits were performed
                                                 in accordance with applicable auditing standards.


                                     Work Planned and In Progress      50
PLANNED                                                DOT’s Purchase Card Program
Quality Control Reviews of Single                      OIG will perform a review of DOT’s controls to
                                                       prevent and detect the improper use of purchase
Audits on DOT Grantees                                 cards.
OIG will perform quality control reviews of the au-
dits performed by independent public accounting        FTA’s Improper Payment Controls
firms on grant recipients’ use of DOT funds.
                                                       OIG is performing a review of the controls imple-
                                                       mented by FTA to prevent and detect improper
DOT’s Implementation of the Improper                   payments to Federal transit grant recipients.
Payments and Elimination Act of 2010
OIG will review the Department’s compliance with
the act and evaluate efforts to prevent and reduce
improper payments.


Security and Controls Review
Over FAA’s En Route Automation
Modernization (ERAM)
OIG will perform a review to determine the effec-
tiveness of information technology security con-
trols for ERAM and whether or not security risks
are adequately identified and properly mitigated.




                                   Semiannual Report to Congress      51
ACQUISITION AND PROCUREMENT

IN PROGRESS

FHWA Oversight of Federal-Aid State                     FAA’s Award of Systems Engineering
ARRA Contract Award Practices                           2020 Contracts
ARRA added $26.7 billion to FHWA’s $40 billion          At the request of the former Ranking Members
a year Federal-aid highway program funding for          of the House Committee on Transportation and
state DOT highway investment and improvement            Infrastructure and its Subcommittee on Aviation,
projects. OIG is determining whether FHWA’s             OIG is reviewing FAA’s Systems Engineering
oversight of state-level contract award practices       2020 contracts. This portfolio of contracts for
is adequate to ensure compliance with laws and          support services, which FAA estimates may have
regulations. We are reviewing FHWA and state            a maximum value of $7 billion, is being used to
DOT policies and procedures, surveying FHWA             implement NextGen. OIG is reviewing whether
division offices on state and FHWA procurement          these contracts are being planned, structured,
oversight practices, and analyzing a statistical        administered, and overseen in accordance with
sample of ARRA contract bidding and award data.         acquisition policy, and meet FAA’s mission needs.


Review of the Office of the Secretary 
 FAA’s Acquisition Workforce Plan
of Transportation’s Acquisition Function OIG is assessing FAA’s acquisition workforce plan
We are assessing the effectiveness of OST’s ac-         to determine whether it comprehensively identi-
quisition function in (1) organizational alignment      fies the Agency’s acquisition workforce and the
and leadership, (2) policies and processes, and (3)     skills and competencies needed now and in the
management controls over acquisition data.              future, and whether FAA addressed identified
                                                        gaps in the hiring and development of its acquisi-
                                                        tion workforce.




                                    Work Planned and In Progress      52
PLANNED                                                 DOT’s Administration of Its
                                                        Disadvantaged Business Enterprise
FTA Oversight of Grantees’ARRA
                                                        (DBE) Program
Contract Award and Administration
Practices                                               OIG plans to conduct a review of DOT’s manage-
                                                        ment and oversight of its DBE program. Our ob-
OIG will determine whether FTA’s oversight of           jective is to determine whether DOT’s oversight,
transit administration-level contracting practices      internal controls, and management of its DBE
is adequate to ensure compliance with laws and          program are adequate to ensure DBE funds are
regulations and delivery of infrastructure invest-      used effectively for meeting program objectives.
ments at appropriate prices.


FHWA Oversight of State DOT ARRA
Contract Administration Practices
OIG will determine whether FHWA’s oversight of
state-level contract administration practices is
adequate to ensure compliance with laws and
regulations and delivery of infrastructure invest-
ments at appropriate prices.




                                   Semiannual Report to Congress      53
Work Planned and In Progress      54
                                            Statistical Performance Data



Summary of Performance
Office of Inspector General
October 1, 2010 - March 31, 2011
(Dollars in Thousands)

Reports Issued                                                              72
Recommendations Issued                                                     221
Congressional Testimonies                                                    1
Total Financial Recommendations                                   $1,666,943
That Funds Be Better Used                                         $1,660,700
Questioned Costs (includes Unsupported Costs)                         $6,243
Indictments                                                                 35
Convictions                                                                 35




                                  Semiannual Report to Congress      55
Statistical Performance Data      56
Audits
Completed OIG Reports
October 1, 2010 - March 31, 2011
(Dollars in Thousands) *


                                Number of       Number of         Questioned   Unsupported     Funds to Be
         Type of Review          Reports     Recommendations        Costs         Costs      Put to Better Use


Internal Audits
Performance Audits                 16               106                $0          $0          $160,700
Financial Audits                   4                 33                 $0         $0         $1,500,000
Attestation Engagements            1                  0                $0          $0              $0
Other OIG Reports                  1                  0                $0          $0              $0
Total Internal Audit Reports       22               139                $0          $0         $1,660,700
Grant Audits
Audits of Grantees under
Single Audit Act                   50                82               $6,243       $0              $0
Total Completed OIG Reports        72               221               $6,243       $0         $1,660,700


*The dollars shown are the amounts reported to management. The actual amounts may change
during final resolution.


Department of Transportation programs and operations are primarily carried out by Department
personnel and recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General
generally fall into three categories: internal audits of departmental programs and operations, audits
of grant recipients, and other OIG reports.




                                  Semiannual Report to Congress      57
OIG Reports with Recommendations that Questioned Costs
October 1, 2010 - March 31, 2011
(Dollars in Thousands)

                                       Number of            Number of          Questioned   Unsupported
                                        Reports          Recommendations         Costs         Costsa


A.    For which no management             11                     12            $142,747     $140,600
      decision had been made
      by the start of the reporting
      period




B.    Which were issued during            12                     14             $6,243          $0
      the reporting period


      Totals (A+B)                        23                     26            $148,990     $140,600


C.    For which a management              23                     26            $148,991     $140,600
      decision was made during
      the reporting period


      (i) dollar value of disallowed      16                     16             $3,914          $0
      costsb


      (ii) dollar value of costs not      9                      12            $145,077     $140,600
      disallowedb


D.    For which no management             0                       0               $0            $0
      decision had been made
      by the end of the reporting
      period

a
    Unsupported costs are also included in the figures shown as questioned costs.
b
    Includes reports and recommendations where costs were both allowed and disallowed.




                                       Statistical Performance Data      58
OIG Reports with Recommendations that Funds Be Put to Better Use
October 1, 2010 - March 31, 2011
(Dollars in Thousands)

                                      Number of            Number of
                                       Reports          Recommendations        Funds to Be Put to Better Use


A.    For which no management             0                      0                          $0
      decision had been made
      by the start of the reporting
      period




B.    Which were issued during            2                      2                    $1,660,700
      the reporting period


      Totals (A+B)                        2                      2                    $1,660,700


C.    For which a management              1                      1                    $1,500,000
      decision was made during
      the reporting period


      (i) dollar value of                 1                      1                    $1,500,000
      recommendations that were
      agreed to by managementa


      ii) dollar value of                 0                      0                          $0
      recommendations that
      were not agreed to by
      managementa


D.    For which no management             1                      1                     $160,700
      decision had been made
      by the end of the reporting
      period

a
    Includes reports and recommendations where costs were both allowed and disallowed.


                                      Semiannual Report to Congress      59
OIG Reports Recommending Changes for Safety, Economy or Efficiency
October 1, 2010 - March 31, 2011

                                                                                      Number of
                                                               Number of Reports   Recommendations


A.    For which no management decision had been                           20             55
      made by the start of the reporting period


B.     Which were issued during the reporting period                      53            205


      Totals: (A+B)                                                       73            260


C. For which a management decision was made                               61            205
   during the reporting period a


D. For which no management decision had been                              21             55
   made by the end of the reporting period a


a
    Includes reports where management both made and did not make a decision on recommendations.




                                       Statistical Performance Data       60
Management Decisions Regarding OIG Recommendations

 October 1, 2010 - March 31, 2011
(Dollars in Thousands)

                                Number of       Number of              Questioned   Unsupported     Funds to Be
                                 Reports     Recommendations             Costs         Costs      Put to Better Use
Unresolved as of 10/01/2010        29                67                $142,747     $140,600            $0


Audits with Findings During        61               221                 $6,243          $0         $1,660,700
Current Period


Total to be Resolved               90               288                $148,990     $140,600       $1,660,700
Management Decisions:
Audits Prior Period a              22                45                $142,747     $140.600            $0
Audits Current Period a            56               187                 $6,243          $0         $1,500,000


Total Resolved                     78               232                $148,990     $140,600       $1,500,000
Aging of Unresolved Audits: b
Less than 6 months old             14                34                   $0            $0          $160,700
6 months – 1 year                   2                 6                   $0            $0              $0
1 year – 18 months                  1                 6                   $0            $0              $0
18 months – 2 years                 2                 3                   $0            $0              $0
Over 2 years old                    3                 7                   $0            $0              $0


Unresolved as of 03/31/2011        22                56                   $0            $0          $160,700

a
    Includes reports and recommendations where costs were both allowed and disallowed.

b
    Considered unresolved if management decisions have not been made on all report recommendations.




                                   Semiannual Report to Congress       61
Office of Inspector General Reports
October 1, 2010 - March 31, 2011

DEPARTMENTWIDE

Internal Audits: Performance/Attestation – 3 reports

    Report        Date                        Title                             Focus of Report/ Recommendations

FI-2011-006   10/22/2010   ARRA Websites Vulnerable to Hackers DOT and its Operating Administrations deployed
                           and Carry Security Risks                    various websites to collect and disseminate
                                                                       ARRA-related information. These websites
                                                                       and databases contain a combination of high-,
                                                                       moderate-, and low-risk vulnerabilities because
                                                                       the websites, databases, and servers were not
                                                                       in compliance with DOT security configuration
                                                                       standards.
PT-2011-010   11/15/2010   Top Management Challenges                   As required by law, OIG identified the top
                                                                       challenges facing DOT for fiscal year 2011.

FI-2011-022   11/15/2010   Timely Actions Needed To Improve            Overall, DOT’s information security program
                           DOT’s Cybersecurity                         does not meet Federal requirements and is not
                                                                       as effective as it should be. The Department
                                                                       has not made the needed progress in address-
                                                                       ing information security policy and procedures,
                                                                       enterprise-level controls, management of
                                                                       information security weaknesses, and system-
                                                                       level controls.

Internal Audits: Financial – 1 report

    Report        Date                        Title                             Focus of Report/ Recommendations

QC-2011-021   11/15/2010   Quality Control Review of Audited           DOT received an unqualified opinion of its
                           Consolidated Financial Statements for consolidated financial statements for fiscal
                           Fiscal Years 2010 and 2009                  years 2010 and 2009; however, five significant
                                                                       deficiencies in internal controls and four poten-
                                                                       tial instances of reportable noncompliance with
                                                                       laws and regulations were reported. Put $1.5
                                                                       billion in funds to better use.


                                        Statistical Performance Data      62
Grant Audits: Audits of Grantee under Single Audit Act – 2 reports


    Report        Date                        Title                        Focus of Report/ Recommendations

QC-2011-056   02/23/2011   City of San Francisco, California        Improve grantee oversight

QC-2011-058   03/07/2011   State of Georgia                         Improve grantee oversight


FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance/Attestation – 9 reports

    Report        Date                        Title                        Focus of Report/ Recommendations

AV-2011-002   10/12/2010   FAA Faces Significant Risks in Imple-    FAA is making progress in implementing
                           menting the Automatic Dependent          ADS-B. However, FAA has not updated its
                           Surveillance-Broadcast (ADS-B)           cost-benefit analysis to ensure it is pursuing the
                           Program and Realizing Benefits           most effective way to implement ADS-B.

AV-2011-007   10/28/2010   New York Flight Delays Have Three        Flight delays in the New York area have three
                           Main Causes, but More Work Is            main causes: (1) crowded airspace due to the
                           Needed To Understand Their Nation-       close proximity and high volume of flight opera-
                           wide Effect                              tions of the three main New York airports; (2)
                                                                    airport capacity constraints; and (3) continued
                                                                    growth in air traffic during the last 10 years, due
                                                                    in part to the phase-out of flight limits (caps)
                                                                    from 2000 to 2007. FAA’s efforts to measure the
                                                                    effect of flight delays are in the developmental
                                                                    stage and require additional work to provide a
                                                                    full understanding of the delay propagation.




                                    Semiannual Report to Congress       63
QC-2011-001   10/05/2010	   Quality Control Review of Controls        Management’s description of the Enterprise
                            Over the Enterprise Services Center       Services Center’s (ESC) controls presents
                                                                      fairly, in all material respects, the controls that
                                                                      have been placed in operation as of June 30,
                                                                      2010. Controls are suitably designed and were
                                                                      operating effectively except in the areas of
                                                                      configuration management and access con-
                                                                      trols. In addition, ESC did not apply in a timely
                                                                      manner critical security updates the vendor
                                                                      had provided, and did not assess the system
                                                                      for vulnerabilities and risks associated with the
                                                                      vulnerabilities.
FI-2011-023   12/01/2010	   Improper Payments Identified in FAA’s FAA’s risk-based approach to AIP grant
                            Airport Improvement Program (AIP)         oversight is inadequate and does not effectively
                                                                      prevent or detect improper payments. Put more
                                                                      than $160 million in funds to better use.
AV-2011-025   12/10/2010	   FAA Needs To Implement More Ef-           We found that the role of the two third par-
                            ficient Performance-Based Navigation ties FAA has approved to develop required
                            Procedures and Clarify the Role of        navigation procedures remains unclear, as
                            Third Parties                             well as FAA’s strategy for implementing timely,
                                                                      high-value routes using in-house resources.
                                                                      In addition, FAA has not fully established an
                                                                      oversight program for third parties, defined the
                                                                      staffing levels needed to oversee them, or final-
                                                                      ized key guidance to industry on qualifications
                                                                      to become a third-party developer.
AV-2011-026   12/16/2010	   FAA Needs To Improve Risk Assess-         FAA inspectors did not complete ATOS inspec-
                            ment Processes for Its Air Transporta- tions of air carriers’ maintenance policies and
                            tion Oversight (ATOS) System              procedures or systems performance on time.
                                                                      FAA transitioned all of its Part 121 inspection
                                                                      offices to ATOS at the end of 2007, but due
                                                                      in part to training gaps some inspectors for
                                                                      smaller air carriers had difficulty adapting ATOS
                                                                      to those carrier’s operations.




                                       Statistical Performance Data      64
AV-2011-053   02/17/2011   FAA Fulfilled Most ARRA Requirements FAA’s process for awarding AIP grants fulfilled
                           in Awarding Airport Grants                most ARRA requirements, including meeting
                                                                     the timeframes for distributing and expending
                                                                     funds, giving preference to projects that could
                                                                     be completed within 2 years, and not sup-
                                                                     planting other expenditures with ARRA funds.
                                                                     However, FAA’s award process was not fully
                                                                     transparent nor did it comply with Presidential
                                                                     direction to optimize economic activity. While
                                                                     FAA took steps to increase grantee oversight,
                                                                     continued effort will be needed to comply with
                                                                     Office of Management and Budget guidance on
                                                                     use of single audit reports.
AV-2011-057   02/28/2011   FAA Did Not Ensure Revenue was            FAA did not exercise effective oversight of land
                           Maximized at Denver International         sales, which allowed Stapleton International
                           Airport                                   Airport land parcels to be sold to a developer
                                                                     for less than fair market value, resulting in the
                                                                     airport losing at least $71 million in revenue.
                                                                     FAA allowed the airport’s sponsor (the City of
                                                                     Denver) to sell Stapleton property based on
                                                                     values established in a 1999 appraisal without
                                                                     the option to take advantage of potential
                                                                     increases in real estate prices over the life
                                                                     of the 25-year agreement between the city
                                                                     and the developer. Also, FAA oversight was
                                                                     not effective in ensuring proper use of airport
                                                                     revenues because it did not prevent the city
                                                                     from diverting revenue from the airport to fund
                                                                     redevelopment, parks, and infrastructure—a
                                                                     federally prohibited non-airport purpose.
AV-2011-072   03/30/2011   FAA Must Improve Its Controller Train- FAA must replace its current training metrics
                           ing Metrics To Help Identify Program      with metrics that focus on how many controllers
                           Needs                                     complete their training or leave the program
                                                                     during a given period of time.




                                     Semiannual Report to Congress       65
Internal Audits: Financial – 1 report


    Report         Date                        Title                            Focus of Report/ Recommendations

QC-2011-011   11/10/2010    Quality Control Review of the Fed-         FAA received an unqualified opinion of its
                            eral Aviation Administration’s Audited     financial statements; however, FAA needs to
                            Financial Statements for Fiscal Years      implement effective security controls to protect
                            2010 and 2009                              its financial information from unauthorized
                                                                       access, modification, and disclosure throughout
                                                                       the year.


Grant Audits: Audits of Grantee under Single Audit Act – 13 reports


                                                                                                Focus of Report/
    Report       Date                                      Title
                                                                                               Recommendations
SA-2011-004   10/14/2010   City of Bogalusa, Louisiana                                     $1,983,589 questioned
QC-2011-005 10/21/2010     State of Illinois (also listed under the Federal Highway        Improve grantee oversight
                           Administration)
SA-2011-013   11/12/2010   Pitkin County, Colorado                                         Improve grantee oversight
SA-2011-015   11/12/2010   City of Martin, South Dakota                                    $32,478 questioned
SA-2011-020   11/12/2010   Baxter County, Arkansas                                         $1,094,781 questioned
SA-2011-028   01/12/2011   Republic of Palau National Government                           $339,548 questioned
SA- 2011-031 01/12/2011    Bi-State Development Agency of the Missouri-Illinois            Improve grantee oversight
                           Metropolitan District (also listed under the Federal Transit
                           Administration)
SA-2011-046   02/16/2011   City of Junction City, Kansas                                   Improve grantee oversight
SA-2011-050   02/16/2011   Reno Tahoe Airport Authority, Nevada                            Improve grantee oversight
SA-2011-060   03/23/2011   City of Billings, Montana (also listed under Federal Transit    Improve grantee oversight
                           Administration)
SA-2011-063   03/23/2011   City of Springfield, Missouri                                   Improve grantee oversight
SA-2011-064   03/23/2011   Greater Orlando Aviation Authority, Florida                     Improve grantee oversight

SA-2011-068   03/23/2011   Town of Taos, New Mexico (also listed under                     Improve grantee oversight
                           Federal Transit Administration)




                                        Statistical Performance Data      66
FEDERAL HIGHWAY ADMINISTRATION

Internal Audits: Performance/Attestation – 2 reports

   Report          Date                         Title                                   Focus of Report/
                                                                                       Recommendations
MH-2011-027 01/06/2011        Actions Needed To Strengthen the         NRT assessments of states’ management of
                              Federal Highway Administration’s         ARRA funds have been thorough and have
                              National Review Teams (NRT)              yielded useful data. However, for NRTs to be
                                                                       fully effective, FHWA needs to (1) define the
                                                                       role of the Directors of Field Services to ensure
                                                                       proactive and consistent oversight of Division
                                                                       Offices’ implementation of corrective action
                                                                       plans; (2) require NRTs to include in summary
                                                                       reports all observations that contain recom-
                                                                       mendations or necessitate some follow-up by
                                                                       the Division Office or state; and (3) improve
                                                                       national-level data analysis.

MH-2011-038   02/09/2011      The Department of Transportation Can The Denali Commission approved appropriate
                              Improve Oversight of Denali Commis-      types of projects, but its project selection
                              sion's Use of Federal Transportation     policy and process were insufficient to ensure
                              Funds                                    that selections were made objectively and were
                                                                       transparent. We made a series of recommen-
                                                                       dations for FHWA to assist the Commission
                                                                       and to ensure that Federal transportation funds
                                                                       are spent efficiently, effectively, and appropri-
                                                                       ately.


Grant Audits: Audits of Grantee under Single Audit Act – 8 reports


    Report        Date                                  Title                                    Focus of Report/
                                                                                                Recommendations
QC-2011-005   10/21/2010 State of Illinois (also listed under the Federal Aviation       Improve grantee oversight
                           Administration)
SA-2011-017   11/12/2010 Intelligent Transportation Society of America, Washington, $14,402 questioned
                           DC
QC-2011-033   01/24/2011 State of California                                             Improve grantee oversight
SA-2011-040   02/14/2011 State of New York                                               Improve grantee oversight



                                       Semiannual Report to Congress       67
SA-2011-043   02/14/2011 City of Rosemead, California                                    Improve grantee oversight
SA-2011-047   02/16/2011 State of Utah                                                   $26,607 questioned
SA-2011-059   03/23/2011 Chaves County, New Mexico                                       Improve grantee oversight
SA-2011-067   03/23/2011 New Mexico Department of Transportation (also listed            Improve grantee oversight
                           under Federal Transit Administration and the National
                           Highway Traffic Safety Administration)

FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance/Attestation – 2 reports

   Report         Date                         Title                                    Focus of Report/
                                                                                       Recommendations
CR-2011-036   01/27/2011     Amtrak Made Significant Improvements Amtrak established planning documents
                             in Its Long-Term Capital Planning         that outline the company’s long-term capital
                             Process                                   requirements and align with the company’s
                                                                       business and strategic goals. In March 2009,
                                                                       Amtrak implemented a software package to
                                                                       prioritize its capital needs in a transparent
                                                                       manner. While Amtrak has established a capital
                                                                       spending plan for its $1.3 billion in ARRA
                                                                       funds, the company still faces challenges in
                                                                       evaluating capital projects, including difficulties
                                                                       in identifying metrics for projects that cannot be
                                                                       easily evaluated. We recommended that FRA
                                                                       enhance its oversight of Amtrak’s capital grant
                                                                       agreement by including specific requirements
                                                                       for post-project reviews to evaluate the results
                                                                       of capital investments.
CR-2011-045   02/15/2011     Quality of Service Provided to Rail       Since 2004, the quality of freight rail service has
                             Shippers                                  varied considerably. Demand levels, derail-
                                                                       ments, and weather events have driven these
                                                                       fluctuations.


Grant Audits: Audits of Grantee under Single Audit Act – 1 report

    Report        Date                                 Title                                      Focus of Report/
                                                                                                 Recommendations
SA-2011-019   11/12/2010 National Railroad Passenger Corporation (AMTRAK)                $30,141 questioned




                                        Statistical Performance Data      68
FEDERAL TRANSIT ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 31 reports

                                                                                               Focus of Report/
   Report         Date                                   Title
                                                                                              Recommendations
SA-2011-003   10/14/2010 Texoma Council of Governments, Texas                            $49,263 questioned
SA-2011-012   11/12/2010 City of Seattle, Washington                                     $160,822 questioned
SA-2011-014   11/12/2010 City of Rapid City, South Dakota                                Improve grantee oversight
SA-2011-016   11/12/2010 Worcester Regional Transit Authority, Massachusetts             Improve grantee oversight
SA-2011-018   11/12/2010 City of Petersburg, Virginia                                    $1,500,000 questioned
SA-2011-029   01/12/2011 Ventura County Transportation Commission, California            Improve grantee oversight
SA-2011-030   01/12/2011 City of Winchester, Virginia                                    Improve grantee oversight
SA-2011-031   01/12/2011 Bi-State Development Agency of the Missouri-Illinois            Improve grantee oversight
                           Metropolitan District (also listed under Federal Aviation
                           Administration)
SA-2011-032   01/21/2011 Suburban Mobility Authority for Regional Transportation,        Improve grantee oversight
                           Michigan
QC-2011-034   01/24/2011 Chicago Transit Authority, Illinois                             Improve grantee oversight
SA-2011-035   01/25/2011 Indianapolis Public Transportation Corporation, Indiana         Improve grantee oversight
SA-2011-039   02/14/2011 The City of Oklahoma City, Oklahoma                             $327,020 questioned
SA-2011-041   02/14/2011 City of Ames, Iowa                                              Improve grantee oversight
SA-2011-042   02/14/2011 Southeastern Pennsylvania Transportation Authority              Improve grantee oversight
SA-2011-044   02/14/2011 City of Roanoke, Virginia                                       Improve grantee oversight
SA-2011-048   02/16/2011 Gary Public Transportation Corporation, Indiana                 Improve grantee oversight
SA-2011-049   02/16/2011 Greater Peoria Mass Transit District, Illinois                  Improve grantee oversight

SA-2011-051   02/16/2011 Regional Transportation Commission, Nevada                      Improve grantee oversight

SA-2011-052   02/16/2011 Regional Transportation Commission of Southern Nevada           Improve grantee oversight

QC-2011-054   02/23/2011 Regional Transportation Commission of Southern Nevada           Improve grantee oversight

SA-2011-060   03/23/2011 City of Billings, Montana (also listed under Federal Aviation   Improve grantee oversight
                           Administration)
QC-2011-055   02/23/2011 Metropolitan Washington Airports Authority                      Improve grantee oversight

SA-2011-061   03/23/2011 City of Elk Grove, California                                   Improve grantee oversight

SA-2011-062   03/23/2011 Sacramento Regional Transit District, California                Improve grantee oversight



                                       Semiannual Report to Congress         69
SA-2011-065   03/23/2011 Mountain Transit Authority, West Virginia                        Improve grantee oversight

SA-2011-066   03/23/2011 City of Tulsa, Oklahoma                                          $684,708 questioned

SA-2011-067   03/23/2011 New Mexico Department of Transportation (also listed under Improve grantee oversight
                           Federal Highway Administration and National Highway
                           Traffic Safety Administration)
SA-2011-068   03/23/2011 Town of Taos, New Mexico (also listed under Federal Avia-        Improve grantee oversight
                           tion Administration)
SA-2011-069   03/23/2011 Washington Metropolitan Area Transit Authority                   Improve grantee oversight

SA-2011-070   03/23/2011 Los Angeles County Metropolitan Transportation Authority,        Improve grantee oversight
                           California
SA-2011-071   03/23/2011 Carson City, Nevada                                              Improve grantee oversight


MARITIME ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

   Report          Date                           Title                                Focus of Report/
                                                                                      Recommendations
CR-2011-024   12/07/2010     Title XI Loan Guarantee Program:          MARAD developed new Title XI guidance and
                             Actions Are Needed To Fully Address       information systems to address the recom-
                             OIG Recommendations                       mendations in our 2003 and 2004 reports but
                                                                       did not effectively implement them. MARAD
                                                                       needs to strengthen its oversight of the Title XI
                                                                       program.




                                        Statistical Performance Data      70
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation –1 report
    Report         Date                       Title                                  Focus of Report/
                                                                                    Recommendations
FI-2011-037   02/01/2011	   Inspector General Review of Fiscal       Our review of NHTSA’s fiscal year 2010 Drug
                            Year 2010 Drug Control Funds and         Control Obligation Summary and Performance
                            Performance Summary Reporting            Summary reports did not identify any
                                                                     information that would reverse management’s
                                                                     assertions that the reports complied with the
                                                                     Office of National Drug Control Policy Circular,
                                                                     Drug Control Accounting, requirements, in all
                                                                     material respects.


Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

    Report         Date                       Title                                  Focus of Report/
                                                                                    Recommendations
SA-2011-067   03/23/2011    New Mexico Department of Trans-          Improve grantee oversight
                            portation (also listed under Federal
                            Highway Administration and Federal
                            Transit Administration)

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Financial – 1 report
    Report         Date                       Title                                  Focus of Report/
                                                                                    Recommendations
QC-2011-009   11/05/2010    Quality Control Review of Audited        Unqualified opinion of financial statements,
                            Financial Statements for Fiscal Years    however NTSB needs to fully implement a
                            2010 and 2009                            managerial cost accounting system.

SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Financial – 1 report
    Report         Date                       Title                                  Focus of Report/
                                                                                    Recommendations
QC-2011-008 11/03/2010      Quality Control Review of of the Saint   The Saint Lawrence Seaway Development
                            Lawrence Seaway Development              Corporation received a clean (unqualified)
                            Corporation’s Audited Financial State- audit opinion on its fiscal years 2010 and 2009
                            ments for Fiscal Years 2010 and 2009     financial statements.



                                     Semiannual Report to Congress      71
Unresolved Recommendations Over 6 Months Old
Cited in Semiannual Report for April 1, 2007 – September 30, 2007

                         Title                                    Report Number     Final Issue Date
Amtrak’s Board of Directors Provides Leadership to                 CR-2007-074        9/14/2007
the Corporation but Can Improve How It Carries Out
Its Oversight Responsibilities


Cited in Semiannual Report for April 1, 2008 – September 30, 2008

                         Title                                    Report Number     Final Issue Date
Review of FAA’s Safety Oversight of Airlines and Use                AV-2008-057       6/30/2008
of Regulatory Partnership Programs


Cited in Semiannual Report for October 1, 2008 - March 31, 2009

                         Title                                    Report Number     Final Issue Date
FAA’s Process for Reporting and                                    AV-2009-045        3/24/2009
Investigating Operational Errors


Cited in Semiannual Report for April 1, 2009 - September 30, 2009

                         Title                                    Report Number     Final Issue Date
Air Traffic Control: Potential Fatigue Factors                     AV-2009-065        6/29/2009
FAA Is Not Realizing the Full Benefits of the Aviation             AV-2009-057        5/14/2009
Safety Action Program



Cited in Semiannual Report for October 1, 2009 - March 31, 2010

                         Title                                    Report Number     Final Issue Date
FAA’s Oversight of American Airlines’ Maintenance                  AV-2010-042         02/16/10
Programs




                                            Statistical Performance Data      72
Cited in Semiannual Report for April 1, 2010 - September 3, 2010

                       Title                                  Report Number      Final Issue Date
State of Illinois                                               SA-2010-25         09/29/2010
Information Security and Privacy Controls Over the             FI-2010-069         06/18/2010
Airmen Medical Support Systems




                                        Semiannual Report to Congress      73
Investigations
Statistical Outcomes
October 1, 2010 - March 31, 2011

                                   Financial Impact
Fines (and Special Assessments)                                            $179,489,108
Restitution                                                                  $4,497,478
Recoveries                                                                  $41,399,080
Cost Avoided                                                                $14,252,608
Total                                                                      $239,638,274


Investigative Workload
Current Investigations Inventory                                                   373
Investigations Opened                                                               96
Investigations Closed                                                              146


Referrals
Referred for Prosecution                                                            75
Accepted for Prosecution                                                            55
Declined for Prosecution                                                            64
Civil Prosecution Referral                                                          10
Civil Prosecution Acceptance                                                         2
Civil Prosecution Declination                                                        6


Judicial and Administrative Actions
Indictments                                                                         35
Convictions                                                                         35
Years Incarceration                                                                 48
Years Supervised Release                                                            55
Years Probation                                                                     40
Hours Community Service                                                           1,300



                                        Statistical Performance Data       74
Suspensions and Debarments                                                     17
Decertification Minority/Disadvantaged Business Enterprises                     1
Reduction in Federal Funding                                                    2
Certification/License/Permit Application Denied                                 1
Employee Counseling                                                             1
Employee Downgrade                                                              1
Employee Reprimand                                                              1
Employee Removal                                                                3


OIG Hotline Contacts
Email                                                                        2,355
Fax                                                                            40
Letters                                                                       108
Web                                                                           317
Telephone                                                                     446




                                    Semiannual Report to Congress      75
Profile of All Pending Investigations by Case Type, as of March 31, 2011

                                                         Types of Cases

                     Number of      Aviation Procurement Employee     Grant              Workforce Motor Transportation
                   Investigations    Safety     Fraud     Integrity   Fraud       Hazmat Protection Carrier  Safety     Othera
DOT-wide                 1             0          1           0           0         0        0        0         0         0
FAA                     117           67          3          17         20          7        0        0         0         3
FHWA                    119            0          3           2        110          1        0        0         0         3
FMCSA                   48             0          0           3           0         7        14      24         0         0
FRA                      1             0          0           0           0         1        0        0         0         0
FTA                     32             0          0           2         30          0        0        0         0         0

STB                      1             0          1           0           0         0        0        0         0         0
MARAD                    7             0          4           1           1         1        0        0         0         0
NHTSA                   16             0          1           1           7         1        0        0         6         0
NTSB                     0             0          0           0           0         0        0        0         0         1
OIG                      1             0          0           0           0         0        0        0         0         1
OST                      3             0          1           2           0         0        0        0         0         0
Other                    0             0          0           0           0         0        0        0         0         0
PHMSA                   22             0          0           0           0         22       0        0         0         0
RITA                     3             0          1           2           0         0        0        0         0         0
SLSDC                    1             0          0           1           0         0        0        0         0         0
Total                   373           67         16          31        168          40       14      24         6         8
Percent of total       100%          18%         4%          8%        45%         11%      4%       6%         2%        3%


Includes computer intrusion.
a



Within the Office of Investigations, Special Investigations staff investigate disclosures of possible (1) violations
of a law, rule, or regulation; (2) gross mismanagement; (3) gross waste of funds; (4) abuse of authority; and
(5) substantial and specific dangers to public health or safety that the Office of Special Counsel (OSC) refers
to the Transportation Secretary. The results of these investigations are used by DOT’s General Counsel as
the basis for the Secretary’s response to OSC referrals. The Secretary’s response must include a list of any
apparent violations Special Investigations found and a description of any action to be taken as a result of the
investigation. Our current inventory consists of six investigations of OSC whistleblower complaints in the area
of aviation safety.




                                              Statistical Performance Data        76
                                                                Peer Review Activity


OIG was not the subject of a Council of the
Inspectors General on Integrity and Efficiency
(CIGIE) peer review during this reporting
period. Our Office of Audits did not conduct
a CIGIE peer review during this reporting
period. However, our Office of Investigations
is currently conducting a peer review of the
Environmental Protection Agency Office of
Inspector General’s investigative operations.
We expect the final report to be released in
June 2011.




                                Semiannual Report to Congress      77
Peer Review Activity    78
                                                      Mission and Organization


The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

 •   To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •   To promote economy, effectiveness, and efficiency within the Department;
 •   To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •   To review existing and proposed laws or regulations affecting the Department and make recom-
     mendations about them;
 •   To keep the Secretary of Transportation and Congress fully informed about problems in depart-
     mental programs and operations.

The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.


OIG’s audits and investigations offices and three support offices work together to fulfill its mission:


The Office of the Principal Assistant Inspector General for Auditing and Evaluation supervises
and conducts all audit activities related to DOT programs and operations through its five suboffices,
which are divided according to specific DOT program areas: Aviation and Special Programs; Highway
and Transit; Rail, Maritime, and Economic Analysis; Financial and Information Technology; and Acqui-
sition and Procurement. Audit staff are located in headquarters and field offices across the country.

The Office of the Principal Assistant Inspector General for Investigations supervises and conducts
OIG investigative activities related to DOT programs and operations through its headquarters and
seven major regional offices. The headquarters office conducts nationwide special investigations and
analysis as well as manages the OIG Hotline Complaint Center and activities generated by complaints.

The Office of the Assistant Inspector General for Legal, Legislative, and External Affairs provides
a full-range of professional legal services and advice, facilitates communications with Congress, and
manages public and external affairs.




                                    Semiannual Report to Congress      79
The Office of the Assistant Inspector General for Administration is divided into four suboffices: the
Office of Procurement and Administrative Services, the Office of Budget and Financial Management,
the Office of Human Resources, and the Office of Information Technology Management.

The Office of Quality Assurance Reviews and Internal Affairs, under the direction of the Deputy
Inspector General, ensures that internal operations and functions are performed objectively and in an
efficient and effective manner.




                                     Mission and Organization      80
                                                        Inspector General




                                                             Deputy
                                                        Inspector General




                       Quality Assurance
                      Reviews and Internal                                                  Chief of Staff
                             Affairs




                                             Principal Assistant            Assistant
Principal Assistant                                                                                      Assistant
                                             Inspector General          Inspector General
Inspector General                                                                                   Inspector General
                                              for Auditing and        for Legal, Legislative,
for Investigations                                                                                  for Administration
                                                 Evaluation            and External Affairs




                                                                        Assistant              Assistant
                           Assistant              Assistant                                                          Assistant
 Deputy Assistant                                                  Inspector General      Inspector General
                      Inspector General      Inspector General                                                  Inspector General
Inspector General                                                  for Rail, Maritime,     for Financial and
                       for Aviation and       for Highway and                                                    For Procurement
for Investigations                                                   and Economic             Information
                      Special Programs             Transit                                                        and Acquisition
                                                                        Analysis              Technology




                       Deputy Assistant       Deputy Assistant
                      Inspector General      Inspector General
                       for Aviation and       for Highway and
                      Special Programs             Transit




                                             Semiannual Report to Congress    81
                                                                Contacts


Inspector General
Calvin L. Scovel III ……………………………………………………………… (202) 366-1959
Deputy Inspector General
Ann Calvaresi-Barr ……………………………………………………………… (202) 366-6767
Principal Assistant Inspector General for Investigations
Timothy Barry …………………………………………………………………… (202) 366-1967
Principal Assistant Inspector General for Auditing and Evaluation
Lou Dixon………………………………………………………………………… (202) 366-1427
Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach …………………………………………………………… (202) 366-8751
Assistant Inspector General for Administration
Susan Dailey …………………………………………………………………… (202) 366-1748
Chief of Staff
Madeline Chulumovich ………………………………………………………… (202) 366-6767
Deputy Assistant Inspector General for Investigations
Robert Westbrooks …………………………………………………………… (202) 366-1972
Assistant Inspector General for Aviation and Special Programs Audits
Jeffrey Guzzetti ………………………………………………………………… (202) 366-0500
Deputy Assistant Inspector General for Aviation and Special Programs Audits
Matt Hampton …………………………………………………………………… (202) 366-1987
Assistant Inspector General for Highway and Transit Audits
Joe Come ……………………………………………………………………… (202) 366-5630
Deputy Assistant Inspector General for Highway and Transit Audits
Tom Yatsco (Acting) …………………………………………………………… (202) 366-5630
Assistant Inspector General for Rail, Maritime, and Economic Analysis
Mitchell Behm …………………………………………………………………… (202) 366-9970
Assistant Inspector General for Financial and Information Technology Audits
Louis King (Acting) ……………………………………………………………… (202) 366-1407
Assistant Inspector General for Procurement and Acquisition Audits
Mary Kay Langan-Feirson……………………………………………………… (202) 366-2001




                              Contacts      82
                                         Notes




Semiannual Report to Congress      83
Notes




        Notes      84
   U.S. Department of Transportation
       Office of Inspector General
      1200 New Jersey Avenue, SE
         Washington, DC 20590


Hotline to report fraud, waste, and abuse:
          Phone: 800-424-9071
       Email: hotline@oig.dot.gov
  OIG Website: http://www.oig.dot.gov
